<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                   Washington, D.C.
    The subcommittee met pursuant to notice, at 10:36 a.m., in 
room SD-138, Dirksen Senate Office Building, Hon. John Hoeven 
(chairman) presiding.
    Present: Senators Hoeven, Collins, Blunt, Moran, Hyde-
Smith, Merkley, Tester, Udall, Leahy and Baldwin.

                     U.S. DEPARTMENT OF AGRICULTURE

STATEMENT OF HON. SONNY PERDUE, SECRETARY
ACCOMPANIED BY:
        ROBERT JOHANSSON, PH.D., CHIEF ECONOMIST
        DIEM-LINH JONES, ACTING BUDGET OFFICER


                opening statement of senator john hoeven


    Senator Hoeven. We will call this meeting of the 
Agriculture Appropriations subcommittee to order.
    Mr. Secretary, right off the bat, we want to thank you very 
much for being here. We truly appreciate it.
    The purpose of today's hearing, of course, is to discuss 
the Department of Agriculture's fiscal year 2019 budget.
    In addition to welcoming Secretary Perdue, we want to 
welcome Dr. Johansson. Thank you for being here.
    And also, Ms. Jones, thank you as well.
    Before we begin, I want to extend a welcome to our newest 
Member, Senator Hyde-Smith, who is here. She was sworn in on 
Monday, and we very much appreciate having you as a Member of 
our subcommittee.
    Senator Hyde-Smith. Thank you. It is great to be here.
    Senator Hoeven. Welcome.
    I also, Mr. Secretary, want to thank you for your visit 
recently to North Dakota. We really appreciate it. I know it 
was a cool day, a beautiful, cool day, and I know that you 
enjoyed that very much coming from Georgia, where it is quite 
warm, to get a chance to enjoy that beautiful, sunny, cool 
weather.
    You did a great job with our farmers and ranchers from not 
just across North Dakota, but we had a lot of them from 
Minnesota. And they really appreciate it, really appreciate it.
    We are here today to discuss the Administration's proposed 
budget for rural America and production agriculture. Reductions 
proposed in the President's budget directly impact our small 
and rural communities and rural areas, as well as our farmers 
and ranchers. Production agriculture is the cornerstone of 
local rural economies, and we need the farm safety net to help 
our ranchers and our farmers weather low commodity prices and 
unforeseen weather conditions.
    Ranchers in North Dakota are recovering from drought, for 
example, and many rely on many of the tools that you have to 
stay in business through these tough times. And that is just 
one example of how important farm programs are to our farmers 
and ranchers, as you know, Mr. Secretary.
    Also, agriculture research is vital to our country's 
ability to compete internationally and to meet the demands of a 
growing global population. And agriculture remains one of 
America's net export industries, right? It is something we are 
very proud of, and we have a tremendous balance of trade in our 
favor in agriculture, thanks to our great producers.
    So we need to continue to do everything we can, not only to 
protect our markets but to open up markets and make sure, as we 
go through any trade negotiation, that there are no retaliatory 
tariffs on our agriculture products. It is extremely important.
    It is something that our farmers and ranchers, as you know, 
Mr. Secretary, are very concerned about. We can outcompete 
anyone, but we have to have that level playing field and that 
opportunity in those export markets.
    While I support many proposals in the President's budget, 
such as the support for the military, which is a huge priority 
for all of us, and we see how important that is in a dangerous 
world, we cannot put the burden of balancing the budget solely 
on the backs of our farmers. Agriculture has already done a lot 
to help reduce the deficit.
    When we passed the last Farm Bill in 2014, the calculation 
was that we would save about $23 billion, okay? But actually, 
the most recent CBO estimate is that the Farm Bill actually 
saves more than $100 billion over the 10-year scoring period. 
Let me repeat that. This is important as we talk about funding 
for agriculture. The CBO estimates that the Farm Bill, over a 
10-year scoring period, saves $104 billion.
    So as we talk here today on this budget, and as we go into 
the Farm Bill, it is important to acknowledge that, that our 
farmers and ranchers are helping find savings to help address 
the debt and deficit.
    In the final fiscal year 2018 appropriations bill, this 
subcommittee made real progress, working with you, Mr. 
Secretary, in terms of modernizing infrastructure in rural 
America, supporting rural development programs, and increasing 
funding for agriculture research. We appreciate that. So we 
look forward to hearing an update from you on implementation of 
those programs.
    We need to be investing in the future of agriculture and 
rural America. The average age of our farmer now, the average 
age is 60 years old. I know, Mr. Secretary, to you and me, that 
seems pretty young----
    [Laughter.]
    Senator Hoeven. But overall, when you think about the 
average farmer out there is 60 years old, we have to continue 
to find ways to help young people get in this great business of 
agriculture.
    So I look forward to working with you, Mr. Secretary, and 
the Members of this subcommittee to identify priorities and do 
everything we can in the most effective and efficient way, to 
make sure that we are providing the necessary support and help 
and resources for our great farmers and ranchers.
    So with that, I will turn to our Ranking Member, Senator 
Merkley.


                   statement of senator jeff merkley


    Senator Merkley. Thank you very much, Chairman Hoeven. It 
has been a pleasure to work with you, and now we get to take on 
fiscal year 2019.
    I want to echo your welcome to Senator Hyde-Smith. Terrific 
to have you here. I understand this is your very first 
subcommittee hearing, so welcome. That kind of makes it 
official, you are here and engaged.
    It is certainly appropriate, given that you were co-chair 
of President Trump's Agriculture Advisory Committee, so I know 
that you will have a lot to contribute to the conversation.
    You have already accomplished several things, one is you 
are sitting here on the Appropriations Committee, a goal that I 
had when I was elected, but it took me 7 years to make that 
happen. You have done in a single week, so well-done.
    [Laughter.]
    Senator Merkley. Second, you brought the number of women in 
the Senate to an all-time high of 23, so you are pushing 
forward on new boundaries, and it is great to have you here. 
Welcome.
    Secretary Perdue, thank you for coming before us to explain 
the fiscal year 2019 Ag budget, and welcome to your colleagues 
as well, Ms. Jones and Dr. Johansson.
    I am just completely confused about the Agriculture budget, 
so I am so glad you are here to help me understand it. The 
reason why I am confused is that, a year ago when you came, you 
noted on several of the issues that we asked about, you said 
that, well, you had not been confirmed when the budget was put 
together, that you did not share all the views in the budget, 
that you might have done it differently.
    But here we are, a year later when it is your budget, but 
it looks very much like the fiscal year 2018 budget. So I know 
that you will help us understand that apparent mismatch.
    The budget before us for agriculture and rural development 
is cut more than $5 billion, more than 25 percent from the 
fiscal year 2018 omnibus levels, and little is spared. Rural 
America is not spared. Our producers are not spared.
    More than 20 research programs at the National Institute of 
Food and Agriculture (NIFA) like last year, 20 research 
programs at NIFA are eliminated or cut. The Agricultural 
Research Service is cut by $184 million.
    Twenty agricultural research stations are closed, including 
one close to my heart in Corvallis, Oregon. It is certainly an 
outstanding contributor to agriculture in my State, which has 
so many specialty crops that need special efforts to make sure 
they remain productive.
    When you were commenting last year, you said, ``Research is 
one of the areas where we may have missed the mark,'' referring 
to the fiscal year 2018 budget. You went on to say, ``If 
American manufacturing had the same level of basic research, 
applied research, and a delivery system like the extension 
service, we would not be talking about the demise of American 
manufacturing.'' You went on to say, ``That is how strongly I 
believe in research in our land grants and research in our 
Agricultural Research Service.''
    But here in the budget, I do not see that same passion that 
we heard last year reflected in the numbers, so I would love to 
understand that better.
    Also, we see nutrition programs being cut, both domestic 
and international. I was just over in some of the most 
challenging parts of the world, South Sudan and Somalia, 
Democratic Republic of the Congo, which should change its name 
because it is not a democratic republic at all, gripped by 
tremendous violence. And in each of those places I went to, 
both refugee camps and internally displaced persons camps, 
people are on the brink of starvation, some 20 million people 
at risk of starvation.
    The thing that is standing between them and starvation? The 
United States of America. It is the USAID program, McGovern-
Dole, Public Law 480 really doing something that is very 
important.
    And even if one said that the humanitarian issues are 
outside of our responsibility, that food, those stacks of grain 
that I saw were grain purchased from American farmers. The oil, 
the cans of oil that I saw, was oil purchased from American 
farmers.
    And that program has a huge impact on our soft power in the 
world, and also on our moral leadership in the world, 
important, powerful elements in our foreign policy and our 
leadership, international leadership.
    So I want to understand that part of the budget better.
    We also see the Commodity Supplemental Food Program 
eliminated, making this budget, in that sense, even more 
draconian than last year's. Thousands of low-income elderly 
people rely on this program here in America to supplement their 
diets.
    I did find some irony that the Commodity Supplemental Food 
Program done through an existing, cost-effective network of 
nonprofits is kind of a food box program. So I find it 
interesting to see that eliminated while at the same time 
advocacy for the harvest box strategy. So I would certainly 
appreciate more insight on that.
    The Farm Service Agency is drastically cut and would lose 
over 1,000 employees. The Natural Resources Conservation 
Service budget, which farmers talk to me about everywhere I go, 
is cut by 25 percent.
    And when you testified before, you said that USDA is a 
customer-focused department, but I know in my town halls all 
over Oregon, and this year I will hit 360 of them, the 
agriculture issues that come up, a lot of the programs that are 
cut in here are the ones that the farmers are raising for me.
    Then we have Rural Development, an agency that you had 
noted was very important to you personally, but more than 43 
programs that benefit small, rural communities are eliminated, 
a number of vital housing loan and grant programs, the entire 
Rural Business Service, the entire Water and Waste disposal 
grant program.
    I should comment on the Water and Waste program, because as 
I go to small communities, they talk about the changing 
standards for clean water and for wastewater treatment, the 
expansion needed for their towns to grow and their 
manufacturing to come in, and just the fact that their old 
systems have worn out makes clean water supply and wastewater 
treatment just an essential element, a very expensive element, 
a very difficult element, and how important these Water and 
Waste programs are.
    So those are just some of the concerns I wanted to raise. I 
hope to get better insight on your strategy and your thinking 
in this hearing.
    Thank you so much.
    Senator Hoeven. Do any other members have opening 
statements before we turn to the Secretary?
    All right, then I will turn to Mr. Secretary for opening 
comments.


                 summary statement of hon. sonny perdue


    Secretary Perdue. Thank you, Chairman Hoeven, Ranking 
Member Senator Merkley, for the opportunity to visit with you 
today.
    As we all know, it is no secret that there is a good bit of 
anxiety out in the farmland today. There are a lot of concerns.
    I want to thank you all for the omnibus budget amount that 
you were able to do and pass in the Bipartisan Budget Act 
recently here. That gave our producers some hope. But from the 
longstanding commodity prices that have created anxiety, the 
current trade disruptions that are there, wildland fire 
disasters, hurricanes this last year, even Renewable Fuel 
Standards (RFS) issues of uncertainty have given for quite a 
bit of concern and anxiety among our agriculture community.
    The forest management tools that you all were able to give 
us, as well as the fire funding, I think will go a long way 
toward us getting control of the wildland fire budget in that 
regard.
    While you bring up many of the issues here, Senator 
Merkley, over some of the deficiencies, we think, again, that 
there are some good things in the proposal that we plan to 
execute. We commit to you to use and deploy the money that you 
appropriated in the 2018 omnibus in a timely fashion as quickly 
as possible, along with the disaster provisions that were 
passed earlier. We are working almost full time in trying to 
determine the fair and just way to deploy those resources as 
well, whether it be fire or whether it be hurricane disasters.
    So there are a lot of issues that I know that your Members 
want to talk about, and I am going to make my remarks fairly 
closely to deal specifically with the specific questions that 
Senator Merkley and others may have to address to us as 
questions and answers.
    So thank you again for the opportunity to be here, and we 
look forward to addressing the questions and concerns of you 
and of those of your constituents.
    Thank you.
    [The statement follows:]
                Prepared Statement of Hon. Sonny Perdue
    Mr. Chairman and distinguished members of this Subcommittee, I 
appreciate the opportunity to appear before you to discuss the 
President's 2019 budget for the Department of Agriculture (USDA). 
Joining me today are Robert Johansson, USDA's Chief Economist, and 
Diem- Linh Jones, USDA's Acting Budget Officer.
                           a productive year
    When I first appeared before this Subcommittee almost a year ago, I 
presented my vision for agriculture and laid out my goals for making 
the Department of Agriculture the best run Department in the Federal 
Government. Since then we have set out to give the men and women of 
America's agricultural and agribusiness sector every opportunity to 
prosper.
    Today, USDA is in a better position to support agricultural 
producers, while providing increased accountability to American 
taxpayers. Through the OneUSDA call to action, we are establishing a 
new operating model for USDA to better serve its customers. As a 
result, we are modernizing USDA operations and service delivery; 
reducing burdens on our stakeholders; serving customers; and ensuring 
responsible use of the Department's resources.
    The newly established Farm Production and Conservation (FPAC) 
Mission Area, comprised of the Farm Service Agency, Risk Management 
Agency, and the Natural Resources Conservation Service, has put a 
stronger focus on domestic agricultural issues. Through this 
organization, USDA supported an effective safety net for the more than 
two million agricultural producers who provide food and fiber to over 
300 million Americans, and millions more around the globe. In response 
to Hurricanes Harvey, Irma and Maria, thousands of FPAC staff were 
deployed across hurricane- stricken regions to provide timely 
assistance through various emergency conservation, clean-up, and 
indemnity programs while authorizing additional time flexibility for 
reporting losses and completing requests for assistance. In addition, 
our employees assisted Puerto Rico with a one-of-a- kind program that 
provided feed for dairy cattle to prevent herd losses, following 
virtually complete destruction of feed sources across the island.
    To reduce redundancies and improve operations within the FPAC 
mission area, we have created an FPAC Business Center to centralize 
administrative and information technology operations for the three FPAC 
agencies. This will strengthen customer service and capitalize on 
efficiencies across the Mission Area. In addition, we are making it 
easier for producers to interact with FPAC employees through the 
introduction of Farmers.gov. When fully operational, this website will 
provide producers the ability to leverage FPAC resources and enroll in 
our programs. We will continue to improve our systems to make us more 
responsive to their needs so we can optimize the time we spend with 
producers in our county offices.
    Since the day he took office as USDA's first Under Secretary for 
Trade and Foreign Agricultural Affairs, Ted McKinney has been circling 
the globe, promoting U.S. agricultural products and engaging with 
foreign government counterparts to break down barriers to U.S. exports. 
I said he'd be our ``million mile flyer'' and he's already getting 
close to hitting that mark. In just over 5 months on the job, he has 
covered 9 countries--India (twice), Colombia, Panama, Brazil, Mexico, 
Belgium, the United Kingdom, the United Arab Emirates and, most 
recently, Japan--advancing our policy interests and promoting our 
products. The trade missions to India and Guatemala he led will 
generate more than $30 million in projected 12-month sales for the U.S. 
agribusinesses that took part. International trade continues to be an 
engine for economic growth in rural America, with U.S. farm and food 
exports reaching $140.5 billion for 2017, the third-highest total on 
record. USDA has worked to find, open, and expand markets for the high-
quality food, fuel, and fiber that our farmers and ranchers produce. We 
are leaving no stone unturned as we work to enter into trade agreements 
that will benefit American agricultural producers.
    China is a key market for U.S. agriculture, but China's unfair 
trade policies, including for agriculture, have undermined fair trade 
and the global trading system. The President is taking steps to address 
those policies. We will also respond to China's unjustified threats to 
retaliate against U.S. farmers. America's farmers, ranchers, foresters, 
and producers are the ones who feed, fuel, and clothe this nation and 
the rest of the world and the Administration stands ready to defend 
agricultural producers who may be harmed. As we take a stronger 
approach to the way we handle trade as a nation, President Trump has 
directed me to use all of my authorities to ensure that we protect and 
preserve our agricultural interests.
    The creation of the Assistant to the Secretary for Rural 
Development recognizes that the economic health of small towns across 
America is crucial to the future of the agricultural economy. It is our 
responsibility to use our resources and expertise to work with these 
communities to achieve a higher quality of life for the 46 million 
people living in rural America. In 2017, USDA made significant 
investments in rural infrastructure, including telecommunications, e-
connectivity, water and sewer systems, and critical community 
facilities that have improved educational, health, and economic 
opportunities for rural residents. These vital services are part of the 
foundation of a high quality of life and provide support to rural 
communities in designing and building solutions based on their own 
specific needs and strengths.
    The Food, Nutrition, and Consumer Services mission area has 
announced several new initiatives. We are seeking ideas to promote work 
and self-sufficiency among able-bodied adults participating in the 
Department's Supplemental Nutrition Assistance Program (SNAP). We 
intend to use the input to find improvements to SNAP policy and related 
services that can best assist SNAP participants return to self-
sufficiency. USDA will continue to build state capacity for workforce 
development through the SNAP to Skills Initiative and the Employment 
and Training Work Academy. The School Meal Flexibility rule has 
provided local food service professionals the flexibility they need to 
serve wholesome, nutritious, and tasty meals in schools across the 
nation. Additionally, we continue to pursue efforts to provide states 
and school districts with additional flexibility and support to operate 
more efficient school meal programs. Recently, we announced a proposal 
to provide much-needed relief for school districts with less than 2,500 
students, allowing them more flexibility in the hiring of new school 
nutrition program directors. To support states' efforts to improve 
program integrity, USDA also rolled out a suite of customizable 
resources to help local school districts improve the accuracy of their 
school meal application processes.
    For the first time, the USDA and Department of Health and Human 
Services are seeking comments on the proposed priority topics and 
supporting scientific questions that will guide the development of the 
upcoming 2020-2025 edition of the Dietary Guidelines for Americans 
(DGA). This new public comment stage at the beginning of the DGA 
development process will help maintain the integrity of the process and 
ensure transparency in communicating the topics that meet the 
priorities of Federal nutrition programs. Through these and other 
actions, USDA has improved customer service across all the mission 
areas of the Department. We successfully eradicated New World screwworm 
after the first detection in the U.S. in 35 years, established the 
necessary workforce to quickly respond to animal health emergencies, 
and reduced sanitary and phytosanitary barriers to trade. In 2017, 
these latter efforts helped preserve trade valued at $7.5 billion 
through resolution of foreign market access issues related to U.S. 
export detainment, technical barriers to trade, and other impediments 
to trade.
    We have maintained our critical responsibility for ensuring that 
America's food supply is safe, while allowing establishments to be as 
efficient and effective as possible. Improving the effectiveness of 
inspection makes better use of the agency's resources by allowing a 
greater focus on process control and offline food safety activities as 
well as removes unnecessary regulatory obstacles to innovation. 
Regulatory changes we are proposing will improve inspection processes 
and allow for more rapid adoption of food safety technologies, while 
achieving a high level of food safety. Our cutting-edge research 
program has led to improved productivity and competitiveness, while 
improving crop quality, nutritional value, and food safety.
    In addition, the Forest Service responded to an extreme fire 
season. In coordination with other Federal, state and local, agencies, 
over 28,000 personnel, including nearly 10,000 Forest Service 
personnel, were supporting fire suppression activities. At the peak of 
Western fire season, there were nearly three times as many total 
uncontained large fires on the landscape as compared to the five-year 
average. USDA appreciates the work of Congress to include a bipartisan 
fix to address funding for fighting wildfires in the 2018 Consolidated 
Appropriations Act. This solution will allow us to focus on increasing 
the pace and scale in the many non-fire-related programs we manage. It 
will enable us to improve overall forest health and keep wildfires from 
threatening lives, homes, and communities.
    We have a strong plan in place to ensure we continue to improve our 
service to rural America. On my first day in office, President Trump 
signed an Executive Order, directing me to lead the Interagency Task 
Force on Agriculture and Rural Prosperity. On January 8, 2018, we 
released the findings of the Task Force. The report is the result of an 
intensive six-month effort made by 22 Federal agencies in partnership 
with state, local, and tribal leaders. The recommendations centered on 
five areas: e-connectivity, quality of life, rural workforce, 
technology, and economic development. To ensure that the findings of 
this report have a meaningful impact on rural America, we are moving 
forward to implement the initial recommendations and to expand 
stakeholder participation. We are working closely with the White House 
so that we can move forward together in making a lasting impact in 
rural America.
    While the Task Force worked tirelessly to identify solutions to the 
problems plaguing our rural communities, there is more work ahead. No 
doubt, rural America has struggled under burdensome regulations, but 
this Administration is taking aggressive action to reduce confusing, 
burdensome regulations that impair productivity, and USDA is not an 
exception. As we visit with producers and rural residents in the coming 
year, we will continue to listen intently and communicate to our 
Federal partners if there are regulations that are unfair or overly 
burdensome. Whether it is duplicative paperwork or unneeded process 
requirements, we want to hear about it. At the President's direction, 
regulatory reform is one of the cornerstones of the Department's 
strategies for creating a culture of consistent, efficient service to 
customers, while reducing burdens and improving efficiency. USDA has 
identified 27 final rules that will be completed in fiscal year 2018 
and result in over $56 million in annual savings.
    We are strengthening our work with our interagency partners in 
furtherance of these efforts. At USDA, we are driving interagency 
coordination to ensure that we can address the challenges that affect 
our stakeholders, whether they are under our jurisdiction or beyond. 
For example, we recently signed an agreement with the Food and Drug 
Administration aimed at making the oversight of food more efficient and 
effective by bolstering our coordination. The formal agreement outlines 
efforts to increase interagency collaboration, efficiency and 
effectiveness on produce safety and biotechnology activities, while 
providing clarity to manufacturers. We also are working closely with 
the Environmental Protection Agency, Department of the Interior and 
other Federal partners to coordinate on issues such as pesticides, 
endangered species, Federal land management and other cross-cutting 
issues.
    President Trump has made it a priority to rebuild our 
infrastructure since the day he took office and he has followed through 
on that commitment. Under the President's infrastructure plan, rural 
America would receive a much-needed boost in investment. With a quarter 
of the new Federal money heading to rural parts of the country, states 
will have the ability to expand broadband access, increase 
connectivity, rebuild roads, and supply affordable utilities. 
Importantly, states will have the flexibility to choose which projects 
will best meet their unique needs. In my travels across the country, I 
have heard from the people in the Heartland, and the overwhelming view 
is that this is just the type of investment they are looking for to 
help create jobs, improve education, improve the quality of life, and 
increase overall prosperity.
                        2019 president's budget
    I am here today to present to you the Administration's Budget for 
the Department. The President's Budget for 2019 for USDA programs 
within this Subcommittee is about $134 billion, of which approximately 
$120 billion is mandatory funding and $14 billion is net discretionary 
funding. The Budget includes mandatory funds to fully support estimated 
participation levels for SNAP and Child Nutrition programs, and 
discretionary funds to fully serve the expected participation level in 
the Special Supplemental Nutrition Program for Women, Infants, and 
Children (WIC). It includes the funding needed to meet our 
responsibility for providing inspection services to the Nation's meat 
and poultry establishments. The Budget focuses on core mission-critical 
activities, such as expansion of agricultural production jobs and 
research, while also supporting the Department-wide reorganization 
efforts. The Budget demonstrates fiscal constraint and responsible use 
of taxpayer resources.
    The Budget provides resources to help agricultural operations 
prosper, fulfilling their mission to feed, fuel, and clothe the world. 
Funding is requested to support over $7 billion in direct and 
guaranteed farm loans for over 46,000 producers. It provides over $1 
billion for the Animal
    and Plant Health Inspection Service to promote the health of animal 
and plant resources and facilitate their movement in the global 
marketplace. For agricultural research and extension activities, it 
requests a total of $2.6 billion, including $375 million for 
competitive grants through the Agriculture and Food Research 
Initiative. The Budget includes $42 million to transfer operational 
responsibilities for the National Bio- and Agro-Defense Facility from 
the Department of Homeland Security to the USDA. This proposal will 
more effectively align missions and facilities protecting our Nation's 
food supply within the Cabinet Department that houses some of the 
world's preeminent expertise in animal disease research and 
diagnostics.
    The Budget continues to support USDA's efforts to promote American 
agricultural exports, develop international standards, remove trade 
barriers by monitoring and enforcing existing trade agreements, and 
negotiate new trade agreements that benefit the U.S. agricultural 
economy. Funding is increased to strengthen monitoring and enforcement 
of existing trade agreements, which will help maintain $140 billion in 
agricultural trade. Funding is also requested to addresses barriers to 
preserve or expand trade valued at $4.5 billion through resolution of 
foreign market access issues. To facilitate exports to buyers in 
countries that may not have access to adequate commercial credit, the 
Budget includes a program level of $5.5 billion for CCC Export 
Guarantee Programs to provide guarantees.
    The Budget proposes to leverage over $36.6 billion in Federal funds 
to stimulate public- private partnerships needed to build rural 
infrastructure including broadband, community facilities, safe and 
affordable housing, health services and facilities, and provide 
capacity-building to help underserved communities become thriving 
communities. This includes $1.2 billion to improve water and wastewater 
services for 1.5 million rural residents and $3.5 billion to provide 
access to improved community facilities for over 5 million rural 
residents. The budget provides $24 billion to lenders in providing 
164,000 low- to moderate-income households the opportunity to own their 
primary residence through the single family housing guaranteed loan 
program. The budget also includes $1.3 billion to fully fund multi-
family rental assistance grants for about 274,000 contracts. This 
funding is in addition to the President's infrastructure proposal.
    The Budget provides the resources necessary to ensure USDA programs 
are delivered efficiently, effectively, and with integrity and a focus 
on customer service. It invests $15 million in IT modernization 
projects to support customer engagement. This includes the initiative I 
previously mentioned to establish a ``customer portal'' that will allow 
farmers and ranchers to more easily access USDA services. It also 
provides $8 million to enhance the Department's cyber security 
capabilities through the acquisition and implementation of tools and 
services needed to enhance the safety and security of customer data and 
government networks.
    The 2019 President's Budget includes a number of legislative 
proposals that produce savings to reduce the deficit. The proposed 
legislation would generate savings of $272 billion over 10 years 
compared to current baseline spending. The Budget proposes to optimize 
and improve crop insurance and commodity programs in a way that 
maintains a strong farm safety net. The Budget does this by eliminating 
subsidies to higher income farmers and reducing overly generous crop 
insurance premium subsidies to farmers and payments made to private 
sector insurance companies. The Budget also includes proposals to 
streamline Federal conservation efforts to focus on programs that 
protect environmentally sensitive land and increase conservation 
practice implementation.
    The Budget supports a foundational principle that those that need 
assistance have access to wholesome and healthy foods. The ``USDA 
America's Harvest Box'' initiative--an innovative approach to providing 
nutritious food to participants in SNAP that combines the traditional 
retail based benefit with a package of 100-percent U.S. grown and 
produced wholesome food staples--and all of it would be home grown by 
American farmers and producers. It maintains the same level of food 
value as SNAP participants currently receive, provides states 
flexibility in administering the program, and is responsible to the 
taxpayers. States would have substantial flexibility to distribute 
these food benefits to participants through existing infrastructure and 
public-private partnerships, or States could choose to deliver directly 
to residences through retailers or commercial delivery services. Both 
rural states and urban areas with food access issues have shown 
interest in direct delivery options. We are also hearing from the 
private sector about helping us innovate around access to food. This 
proposal combines the best elements of SNAP and the USDA Foods 
programs, and could even allow states to provide participants the 
opportunity to select from a list of food items and some states may 
choose to include additional items, such as fresh fruits and vegetables 
through public-private partnerships. In addition, the Budget expands on 
previous proposals to strengthen expectations for work among able-
bodied adults, preserves benefits for those most in need, promotes 
efficiency in State operations, and improves program integrity. 
Combined, these reforms maintain the Administration's commitment to 
ensuring Americans in need of assistance have access to a nutritious 
diet while significantly reducing the cost to taxpayers.
    The economy is strong with 103,000 jobs created in March and 
unemployment at 4.1 percent. The Nation's Gross Domestic Product (GDP) 
is growing at a healthy pace. The Bureau of Economic Analysis estimates 
GDP grew at the annual rate of 2.9 percent in the fourth quarter of 
2017. But, according to the US Treasury, the National debt has grown to 
more than $21 trillion. At USDA, we will do our part to reduce 
government spending. That is why we are committed to making USDA the 
most effective, most efficient, most customer-focused department in the 
Federal Government.
    I would be happy to answer any questions at this time.

                         DISASTER SUPPLEMENTAL

    Senator Hoeven. Thanks, Mr. Secretary. We will have 5-
minute rounds of questioning then. We appreciate you being here 
and answering these questions.
    I am going to start on the disaster supplemental that you 
referred to. What is the status, in terms of getting that 
funding out?
    Obviously, we had hurricanes, wildfires, droughts. There 
was a lot that went on. So what is the status of getting 
funding out to those farmers and ranchers that were impacted?
    Secretary Perdue. Frankly, Senator, we had hoped to 
announce the program this week. Honestly, one of the issues 
that has come up is the concentration in the citrus industry 
there that could lead to some disparity in awards, some large 
awards. The industry is so concentrated in citrus that we have 
really had to dig in.
    We have most of the other things figured out, and we hope 
to have that as soon as possible. We are working on it, 
frankly, every day, in that issue. I would hope by--I would 
give ourselves a time period probably of next week to have some 
announcement of that.
    We would expect it takes a while to get the software, as 
you know, in the Farm Service Agency (FSA) offices aligned with 
the applications. So we hope that the sign-up can be in June.
    We are anticipating announcing a 50 percent advance of 
anticipated losses. Oftentimes, producers, by the time the 
disaster money is deployed, they forgot what it is for. So we 
have challenged our people, since you all passed the disaster 
provision sooner rather than later, the challenge is, many 
people in this public arena want to have comments and 
stakeholder comments about that. We have taken time to listen 
to various components of the industry, as well as your Members 
and colleagues on this side, and the House side as well, as 
well as Governors and industry representatives on both sides, 
trying to get a good sense of what is the best way, the most 
fair way, the most equitable way to deploy the disaster 
provisions that you all provided.
    You, obviously, gave the Secretary a lot of discretion in 
that from the USDA, and we want to honor that confidence by 
making you pleased with the way we deploy those resources. So, 
hopefully, we are, again, within a week to 10 days of that 
announcement of the provisions of that.
    Senator Hoeven. I appreciate that. And you have put some of 
them out. For example, drought funding is an area where you 
have put it out there. I want to acknowledge that and thank you 
for that.
    Secretary Perdue. We have on the programs that were already 
set in place, not the wildfire and hurricane issues, but where 
there are places ready for predetermined Farm Bill programs, we 
have already gotten that money out the door and deployed that.

            FARM PRODUCTION AND CONSERVATION BUSINESS CENTER

    Senator Hoeven. Right, which directly affects, for example, 
our ranchers. So that is helpful.
    I want to ask you about your Farm Production and 
Conservation Business Center. It looks like you are working to 
realign staffing. So if you would, talk a little bit about your 
vision for the business center and the services that it is 
going to support. And what kind of timeline are you looking at 
to put this in place?
    Secretary Perdue. Excellent question. I know there are some 
other issues and concerns and questions about staffing.
    What I felt was the right thing to do was to get our Under 
Secretaries in place. As you know, in our business 
reorganization, we realigned our FSA offices along with our 
Natural Resources Conservation Service (NRCS) offices, as well 
as the crop insurance Risk Management Agency (RMA) offices 
there that are directly customer-facing.
    Senator Merkley reminded me of my conversation and my 
vision of being the most efficient, the most effective, but he 
also left out the most customer-focused. We know that we do 
that with people. With Bill Northey finally on board as the 
Under Secretary for that division, we are undergoing a 
strategic mission-wide staffing plan.
    We know there are obviously some deficiencies based on 
attrition in various places. There have not been any Reduction 
in Force (RIFs) or layoffs or anything like that. This is a 
matter of, with 100,000-plus employees, you are going to have a 
certain degree of attrition every year. This has not been 
purposeful, to leave those unfilled. It has been the strategic 
plan of getting where the right people ought to be in the right 
amount in the right places to do what we want to do by our 
customers in that regard.
    We are probably, I would say, 75 percent through that. We 
have authorized already some hiring and some different levels 
in different mission areas, and I hope to have that completed 
within the next 3 weeks, probably, for all those agencies, 
including the Forest Service as well.

                             HIRING FREEZE

    Senator Hoeven. Is there a hiring freeze? You show 
reductions in some of the staffing, and we are getting that 
question. So, I mean, I understand you are going through some 
reorganization here, but is there a hiring freeze?
    Secretary Perdue. There was initially, but the hiring 
freeze has been off for a while now. So as I indicated, we have 
not been operating under a hiring freeze. It has been operating 
under: What is the right number, the right job title? What are 
the right responsibilities? And what are the expectations in 
all of these offices across the country to get the customers 
served in the most efficient way?
    We are also looking at, as you know, and you all funded 
some IT improvements that will help NRCS and FSA do their work 
in a more collaborative fashion.

                   FARM SERVICE AGENCY COUNTY OFFICES

    Senator Hoeven. One area we are concerned about are the FSA 
offices. Our farmers are very concerned about that. Right now, 
you are prohibited from closing FSA offices. Is there some 
intent in your proposal to do that?
    Secretary Perdue. Well, there is not, but you all need to 
be mindful that, while the prohibition remained in the 2018 
omnibus to closing offices, we have them open, but no employees 
there. That is the problem. I think there are between 60 and 70 
like that.
    And that is, frankly, one of the things I would like, when 
we bring back a comprehensive staffing plan to you all, that 
you would look at and have an opportunity to observe and see 
where we plan to staff and how we plan to staff. I hope that 
you all would give some consideration to the flexibility of 
managing the work force in a way that we want to serve your 
constituents as much as you do.
    Senator Hoeven. That is why I am saying we need to look at 
your proposal, because all those things go together, and figure 
out what serves farmers and ranchers the best here.
    Secretary Perdue. We would expect that, and we would love 
to do that in collaboration with the Members of Congress who 
have to, obviously, account to their constituents for the level 
of service they are getting, and we want to be held accountable 
for that.
    Senator Hoeven. Thank you.
    Senator Merkley.

                  FISCAL YEAR 2018 RESCISSION PROPOSAL

    Senator Merkley. Thank you very much. And I really have 
appreciated the dialogue over the last year on multiple issues 
so important to the diverse agricultural stakeholders in 
Oregon.
    Three weeks ago, Congress passed the fiscal year omnibus 
spending bill, and the Agriculture Division of the omnibus 
reflects a bipartisan, bicameral determination to fund programs 
so important over a broad swath of agriculture. However, we 
understand that there is a possibility that Office of 
Management and Budget (OMB) will submit to Congress a 
rescission bill that will target specific programs.
    Are there going to be rescissions proposed on the 
agriculture budget? If so, what is your advice to the 
President?
    Secretary Perdue. I am relieved today, Senator, that I can 
claim plausible deniability about that. I have had no 
discussions with the White House about that. I think that is 
kind of a recent discussion that maybe cropped up over the 
weekend last weekend, or maybe the weekend just before this 
most recent one, about that.
    But we have not been included in that. I know there has 
been probably some staff communications over ideas. But as I 
said, it is not something that I am familiar with or have been 
asked about thus far.
    Senator Merkley. Would you consider, as you enter that 
dialogue, consulting with the subcommittee here on what should 
or should not be in a rescission bill?
    Secretary Perdue. I think that would be a wise thing to do.

                           DROUGHT CONDITIONS

    Senator Merkley. Thank you. And I did note that you started 
out by saying that you were committed to spending the fiscal 
year 2018 omnibus funds effectively. I appreciate that very 
much, because those funds out in the field can do a lot.
    We have a challenging situation in Klamath County in 
Oregon. Very little snowpack, quite possibly our worst drought 
ever.
    Senator Hoeven. We still have some snow we can send you.
    Senator Merkley. Can you please?
    Senator Hoeven. Tester does, too.
    Senator Merkley. Great. I was offering to ship some snow up 
to Alaska, if needed, for the Iditarod. But this year, I cannot 
make the same offer, because we do not have it. But you can 
truck it out our way.
    So the low snowpack means very little water. So there is 
plenty underway for how this--we had the worst ever drought in 
2001, 2010, 2013, a big shortfall in 2015. But the Klamath 
Basin is really worried about this particular year.
    So I wanted, first, to invite you to come to that 
agricultural region, so you can firsthand see some of the 
impacts there and maybe join us and partnering on brainstorming 
on how the resources of the omnibus might be effectively 
deployed to assist the farmers and ranchers in that region.
    Secretary Perdue. I appreciate the invitation. I have 
clicked off 35 States, and your State and Washington are the 
next two on the list, so we hope to make it very, very soon. We 
are in the planning stages there now of Oregon and Washington, 
to see just those impacts.
    Senator Merkley. I know that when you come to Oregon, you 
may not want to leave, because it is paradise. But paradise 
does have an affliction.
    Secretary Perdue. I noticed that in North Dakota as well.
    [Laughter.]

                           FOOD AID PROGRAMS

    Senator Merkley. It is paradise in North Dakota, 
undoubtedly, but it looks a little different, a different type, 
a different type of paradise.
    So we really would appreciate your partnership in helping 
to take on that specific challenge.
    Let me turn to the question. You have a motto for the 
Department, ``Do right and feed everyone.'' You may have been 
primarily referring to Americans, but as I mentioned in my 
opening statement, the work this subcommittee does stand 
between the issue of people dying or not dying, and I do not 
exaggerate, by the millions. So it is both, as I mentioned, a 
soft power but also a humanitarian and a world leadership 
issue.
    So these pictures are representative of what I saw on my 
recent trip to South Sudan, Somalia, Congo, and the Democratic 
Republic of Congo (DRC). I saw warehouses full of American 
food, cans of oil, American cans of oil, American funding at 
the health care clinics.
    I will never forget meeting these three women at a refugee 
camp in Kenya. They had babies in their arms, one baby 
afflicted by HIV/AIDS, another baby afflicted by malaria. The 
third baby, as far as we could understand, simply on the edge 
of starvation.
    And the hope and possibility for a better life as people 
flee to these internally displaced persons camps and refugee 
camps, often the first, fundamental thing is something to eat.
    So I just wanted to ask about your decision to not fund 
Food for Peace and McGovern-Dole, and whether you might 
consider working with us to go a different direction on that.
    Secretary Perdue. Senator, I applaud your moral 
consciousness on this, and I think anyone who has had the 
opportunity to view these sites as you described comes back 
changed. I know I have talked to many friends who have been on 
missionary trips in different parts of the world such as this 
and see the horror of malnutrition and starvation and come back 
changed in that way. And I agree with you.
    I also have had the opportunity last year to visit with 
Governor Beasley, who is implementing many of these programs 
around the world and describing the impact and the influence 
that the United States gains from those, so I cannot disagree 
with you at all over that issue.
    If you all see fit to appropriate money for that, we will 
deploy that and use that. As you know, much of it is passed 
through with USAID that does that.
    I would appeal to you all, while there is some effort to 
demonstrate--to give cash, I would ask that you all continue 
the policy that has been in the past to let us use commodities 
grown by U.S. growers in order to do that and not just dispense 
money.

                           DROUGHT CONDITIONS

    Senator Merkley. I was sure pleased to see those U.S. flags 
on grains and cans everywhere I went.
    I will just close by saying I am glad that Oregon is next 
on your list, and I will look forward to coordinating with you 
in that regard and, hopefully, having the chance to not just 
talk about the drought in Klamath but also the great diversity 
of Oregon's specialty food crops and the real importance of our 
research station in Corvallis.
    Thank you.
    Secretary Perdue. Thank you, Senator. Certainly, your area, 
obviously, is vulnerable with the drought predictors we have 
this year for wildland fires. That is one area I would like to 
visit with you out there, to tell you our plans about what we 
want to do in wildland fire prevention and how we can use the 
tools that you have afforded us to help to reduce that threat 
this year.
    Senator Merkley. Thank you.
    Senator Hoeven. Mr. Secretary, I agree with your comment 
very much about using the commodities in those programs. It is 
a great way to do it and really a double benefit for our 
country and for the people that we are trying to help, so I 
appreciate that comment.
    Senator Blunt.
    Senator Blunt. I believe Senator Moran was here first, and 
he will talk to me about this for the rest of the week if I 
take his time.
    Senator Hoeven. He was, but he is being penalized for 
getting such a big buffalo head, so we have to deduct a certain 
amount of time for that.
    Senator Moran. And my preference, Mr. Chairman, is to not 
have Senator Blunt hold it over my head that he deferred to me.
    Senator Hoeven. Which one of you wants to go next?

                              FARM ECONOMY

    Senator Blunt. In that case, I will go next, Mr. Chairman.
    Secretary, good to have you here.
    Dr. Johansson, your work is certainly cut out for you these 
days, trying to anticipate what is going to happen and how that 
is going to affect American agriculture.
    Mr. Secretary, we had a forum at Missouri State University 
a few days ago. Chris Chinn, our Director of Agriculture; the 
president of the Farm Bureau in Missouri, Blake Hurst; and I 
answered questions for 45 minutes, and the Farm Bill never came 
up.
    Now, I do not think I have ever been in one of those forums 
before when that happened, but the topics were trade and 
regulation and rural broadband. I think that says a lot about 
what is on the minds of our producers in the country today.
    Certainly, on trade, I noticed that the proposed budget 
actually reduces the market access funding and the foreign 
market development funding at a time when I think that is 
probably the worst thing to do. But our trade relationships are 
having an impact on commodities right now.
    In an earlier discussion this week, it was pointed out that 
people trying to borrow money to put in a crop based on the 
future commodity prices are disadvantaged by the current 
downturn in those future prices.
    I do not really know what question to ask here. I believe 
you are an advocate for expanding our trade opportunities. That 
is clearly not the message that is coming out of the 
Administration or the trade representative right now.
    But to either you or Dr. Johansson, at a time when we are 
going to see world food need and world food demand accelerate 
so rapidly, what is the danger of uncertainty for farming 
families and for production agriculture, as well as all the 
other things that are impacted every day by just the economy of 
food?
    Secretary Perdue. Great question, Senator. Before you were 
able to arrive, I talked about the cumulative effect of low 
commodity prices even before all these disruptions and the 
anxiety over farm income. We know that it has decreased about 
50 percent over last 4 or 5 years, which puts a lot of stress 
on any kind of business. Certainly, with the trade disruptions 
in various ways, both from a trade dispute standpoint, both 
from RFS uncertainty that we have dealt with, and those kinds 
of things, these things are cumulative.
    I think you accurately observed the fact that these things 
have overshadowed in a Farm Bill year the reauthorization of 
the Farm Bill. What we hear about, you identified two of the 
three topics that we hear, and that is trade, labor, illegal 
farm work force and immigrant regulation. That is what we hear.
    Obviously, trade has taken the lead by a considerable 
amount, in light of the recent days. The President has assured 
me, and I have tried to assure the constituency, our 
constituency out there, that we are not going to ask farmers to 
bear the brunt and to be the casualties in a trade dispute war. 
How we do that--and, obviously, our goal is to have 
negotiations.
    I was very pleased over the weekend to see the Chinese 
President come back and indicate some willingness to sit down 
and talk. I applaud the President for kind of getting their 
attention. What has happened over the years is the Chinese have 
talked and talked and talked and talked, and nothing ever 
happens. And so with this issue of intellectual property theft, 
you also are aware that that has happened to agriculture as 
well, in fact, in digging up seeds in fields of Iowa and trying 
to reverse engineer those genetics.
    So it has affected us all, and farmers understand that. 
They are patriots first, but when their livelihood and their 
futures are exposed as they are now, there is considerable 
anxiety about that.
    And our role, our goal, is to afford them as much as we can 
a strategy to negotiate and to win the negotiation discussions 
about fair trade--we do not believe the Chinese have played 
fairly in those issues--but how we can do that while also 
having their back from a mitigation standpoint if it comes to 
that. And that is what we would plan to do.

                        RENEWABLE FUEL STANDARDS

    Senator Blunt. One final observation, I am about at the 
time here, and, Dr. Johansson, you and I can hopefully talk 
about this later, I think it is going to be challenging enough 
to meet the new demands and opportunities in agriculture 
without adding things to it. People continuing to want to be 
part of the thing that we are the most competitive in the world 
is a good thing.
    I think the regulatory efforts generally by the 
Environmental Protection Agency (EPA), certainly well-received 
where I live, on the Waters of the U.S. and the power rule that 
would have really damaged our economy, but one EPA issue I am 
going to bring up, even though this is not an EPA hearing, is 
the economic hardship waiver authority on the Renewable 
Indentification Numbers (RINs) issue.
    I got a letter that we sent the Administration, Senator 
Thune, Senator Ernst, Senator Grassley, Senator Fischer and I, 
and I will see that you get a copy of that as well, Mr. 
Secretary.
    But I would like to enter that into the record, Mr. 
Chairman, of this meeting as part of our record, just our 
concerns that, if you are going to use that waiver authority, 
you really need to use it in the way it has been intended. 
Reduction in commodity prices, another reason to reduce 
commodity prices, is not what we need to see right now.
    Secretary Perdue. Senator, you might imagine that an astute 
Secretary would already have that letter, and I have seen it, 
and I concur with your opinion.
    As you know, we have a statutory volume of 15 billion 
gallons, and those waivers reduce that gallon for gallon. And 
we asked for that information from EPA, and the Administrator 
has promised to have that as soon as they can gather that 
information over the waivers that have been issued.
    But that is demand destruction in that way, along with the 
trade dispute anxiety right now, it is having a cumulative 
effect over our producers and their financiers and bankers and 
others in the whole supply chain of agriculture.
    Senator Blunt. Right. Thank you, Mr. Secretary. And thank 
you for the job you are doing and being on top of that and 
other issues even before being brought up here.
    Senator Hoeven. The letter will be entered in the record, 
without objection.
    [The text of the letter was reprinted for clarity. The 
information follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


April 12, 2018

The Honorable Scott Pruitt Administrator
Environmental Protection Agency
200 Pennsylvania Avenue, N.W.
Washington, D.C. 20460

Dear Administrator Pruitt:

We are writing to you regarding the actions the Environmental 
Protection Agency (EPA) has taken to undermine commitments President 
Trump made on the Renewable Fuel Standard (RFS) to our constituents. 
Recent reports indicate dozens of small refiner waivers have been 
secretly granted to large, multi-billion-dollar companies under the 
guise of the small refinery hardship exemption provision in section 
21l(o)(9) of the Clean Air Act. This is extremely concerning to us.

During your confirmation hearing for the post of Administrator of the 
BPA, you said, ``Any steps that the EPA Administrator takes need to be 
done in such a way as to further the objectives of Congress in that 
statute, not undermine the objectives of Congress in that statute.'' 
You also wrote to a number of Senators in October 2017 and said, ``I 
reiterate my commitment to you and your constituents to act consistent 
with the text and spirit of the RFS. I take seriously my responsibility 
to do so in an open and transparent manner that advances the full 
potential of this program...''

According to recent reports, the EPA has already issued 25 
``disproportionate hardship'' waivers to large, multi-billion-dollar 
refining companies reporting billions of dollars of profits since 2016. 
Such action would represent a clear violation of your commitments and 
clearly undermine the President's long-standing support of the RFS.

These waivers fall well outside the bounds of the letter or spirit of 
this provision in the law, which sought to provide flexibility for the 
smallest of U.S. refiners, and only in cases of genuine hardship. 
Worse, EPA's actions are already hurting biofuel producers and farmers 
across the United States at a time when farm income is at the lowest 
levels since 2006 and retaliatory trade measures from China threaten to 
deepen the crisis.

In 2015, 37 Senators wrote to the EPA requesting that the agency issue 
a strong Renewable Volume Obligation (RVO), citing the RFS's success in 
driving economic development, strengthening agriculture markets, and 
creating hundreds of thousands of clean energy jobs in rural 
communities. Early reports indicate that the small refinery waivers you 
have granted could effectively cut biofuel demand by 1.5 billion 
gallons, thus effectively lowering President Trump's commitment to 
seeing 15 billion gallons of ethanol blended to 13.5 billion. 
Additionally, once these select refiners are no longer responsible for 
complying with these 2016 requirements, they are able to sell excess 
Renewable Identification Numbers (RINs) back into the market, 
increasing supply and lowering the price.

This further reduces incentives for blending, slashing demand for 
biofuels and feedstocks, and hurting farmers and biofuels companies. 
These waivers could cripple the market for years to come, holding back 
homegrown biofuels while creating a windfall profits for large oil 
refiners--the exact opposite of this administration's promise to 
voters.

Perhaps most concerning, these lucrative waivers have rep01tedly been 
issued behind closed doors, outside of the public process, while the 
EPA has simultaneously been working with refineries to pressure 
President Trump to sign off on a RIN cap that would wreak further havoc 
on the RFS.

We request that you take the following actions immediately:

  --Cease issuing any refinery waivers under the RFS;

  --Provide a full list of the refiners that have received a refinery 
        waiver in 2016, 2017 or 2018, including the name, location, 
        refining capacity, date waiver was issued, and number of 
        gallons waived;

  --Provide a detailed report to Congress within two weeks of receipt 
        of this letter that describes your justification for providing 
        each of these waivers. Specifically, please include whether the 
        volumes were redistributed to other obligated parties. If the 
        volumes were not redistributed, please explain why they were 
        not and the reason EPA decided to undercut the RVOs against the 
        President's commitment;

  --Respond in writing describing your commitment and plan to consider 
        future small refinery waivers only during the annual RVO 
        rulemaking process and commitment to provide full notice and 
        opportunity for comment on any future small refinery waiver 
        requests.

We appreciate your timely response to these matters.

Sincerely,
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Senator Hoeven. Senator Leahy.

                  FISCAL YEAR 2018 RESCISSION PROPOSAL

    Senator Leahy. Thank you, Mr. Chairman.
    Secretary Perdue, welcome. I have appreciated the 
conversations we have had since the time of your nomination.
    I like your slogan about do right and feed everyone. But I 
also look at the budget, and the programs you want to eliminate 
or cut benefit our rural communities. And you certainly are 
familiar from your own State of rural communities, as am I, 
that these communities face housing, infrastructure, and opioid 
crises. And they eliminate some important work being done 
around the world to feed people.
    We need to make investments, so we actually do right by all 
and feed everyone. It has to be more than a slogan.
    Now, President Trump agreed with the Republican leadership 
and the Democratic leadership on our bipartisan budget 
agreement, and we passed it knowing that he said he would sign 
it.
    A few days later, he starts tweeting he does not like it, 
he has changed his mind, and he wants to send up rescissions, a 
package of rescissions that would go back on his word and 
everybody else's.
    Now, I am probably a little bit old-fashioned, but I have 
been here with a lot of Republican and Democratic Presidents. I 
have always felt that, if you strike a deal with them, they 
keep their word and we keep ours. I am hoping that the Senate 
does not and the House does not change the budget we passed.
    Now, you talked about the importance of investing in our 
rural communities. I agree with that, in infrastructure, 
telecommunications, water and sewer systems, community 
facilities.
    Would you support rescissions to programs we just funded in 
the bipartisan Republican- and Democratic-supported fiscal year 
2018 omnibus appropriations act to advance these goals: rural 
broadband funding, water and wastewater loans and grants, rural 
business development grants, funding for community facility 
grants? Would you support rescissions to what we did?
    Secretary Perdue. Senator, I indicated, maybe before you 
went in, that I have plausible deniability.
    Senator Leahy. I heard the words. I just want to hear them 
again.
    Secretary Perdue. To answer your question specifically, we 
are very grateful of the omnibus appropriation and our 
commitment to deploy that as wisely and as quickly as possible 
what you have appropriated.
    I agree with you. I think, again, once a budget is set, it 
certainly would require extreme collaboration to look at any 
rescission issues in that area, and we would be extremely very 
careful about that. We have not been participative in those 
discussions.

                              DAIRY SECTOR

    Senator Leahy. The Senators I have talked with and House 
Members have talked with in both parties are not eager to see 
any rescissions. We worked hard enough to get to the deal we 
had. We have kept our word. We want the President to.
    Now, you are looking for new ways to compensate farmers for 
the losses due to the new Chinese tariffs and trade war. Dairy 
farmers are still wondering when you will use some of your 
existing authorities to help them. I get calls all the time for 
my office about this.
    Our Republican Governor and others in our State Agency of 
Agriculture are supporting a crisis hotline for farmers who are 
feeling financial stress and depression and, tragically, 
thoughts of suicide.
    Beyond the reopening of the Margin Protection Program on 
Monday with the changes in lower premiums included in the 
Bipartisan Budget Act of 2018, how are you applying the 
standard of protecting and preserving to the Nation's dairy 
farmers who are already facing enormous stress?
    That may sound like a parochial view, but you hear it from 
a lot of other States, too.
    Secretary Perdue. There is no doubt, Senator. We discussed 
it coming over with Dr. Johansson that, out of all the 
agricultural sectors I am familiar with, I think the dairy 
sector, particularly the smaller dairy sector, is probably 
under more duress than any other one we know.
    We are hopeful that the new revised Margin Protection 
Program that you all rolled out in the Bipartisan Budget Act 
will be helpful. We tried to implement and announce that as 
quickly as possible. We will look at any other kind of animal 
or forage type of help that people qualify with in that way.
    Again, I think that this is an issue for the broader Farm 
Bill discussions coming up. We know that the dairy sector did 
not fare as well as we had hoped in the 2014 Farm Bill, and I 
think there probably needs to be some additional help in that 
bill.
    Senator Leahy. My staff will probably talk with your staff, 
and please direct them to be as open with us as possible.
    Secretary Perdue. Certainly. And if they have ideas about 
what we can do in the meantime, I would request the same thing, 
recommendations of authorities that we can use. We are willing 
to do that in the dairy sector.

                         FARM-TO-SCHOOL PROGRAM

    Senator Leahy. The last thing I would ask, about the Farm-
to-School program, this has had enormous success. I take some 
credit for getting that program through originally.
    It has brought farm-fresh products to schoolchildren. It 
has helped them learn about healthy eating, which is even more 
important, in some ways. It has connected children to local 
farms.
    My wife and I go and visit a lot of the schools that have 
that. She is a nurse. We were just excited to see these 
children eating sometimes things that they had never seen 
before and find out that it actually tastes good.
    We included $5 million in discretionary funding in last 
month's omnibus appropriations act to support Farm-to-School 
grants. These funds have been authorized in the past, but they 
have never been in there. But I see some Members of the 
Appropriations Committee here. We got it in.
    Would you please help get this funding out the door as 
quickly as possible to help support these Farm-to-School 
programs around the country?
    Secretary Perdue. I will absolutely commit to that. With my 
RV tour up in your part of the world, I was really stunningly, 
pleasantly surprised about the number on farm growth, 
particularly in the smaller farms, the farm-to-table type 
movements up there, the farm markets. Agriculture was alive and 
well. We talk about the age of producers, these were young 
millennials coming back with a spirit of healthy eating and 
healthy producing.
    So we will absolutely get on that as quickly as possible.
    Senator Leahy. And look at the front page of the food 
section of the Washington Post today about how we make maple 
syrup. Thank you.
    [Laughter.]
    Senator Collins [presiding]. Senator Moran.

                              FARM ECONOMY

    Senator Moran. Chairwoman, thank you very much.
    Mr. Secretary, thank you for your presence here. I am 
pleased with your leadership at USDA and the responsiveness 
that you and your team have had with us in trying to take care 
of issues that we care about at home.
    You have commented about trade. The photograph behind me is 
my arrival in Kensington, Kansas, to speak at a Veterans Day 
event, and I am driving down the street of a town of less than 
500 people and notice that there is something piled on the 
ground. You can barely see the grain elevator in the 
background. It is the circumstance that we face across Kansas. 
This is not an unusual photograph.
    And I would highlight for you what Senator Merkley said 
about food aid and the importance of us meeting our moral 
obligations around the globe to put grain into the diets of 
people who are suffering in five different famines across the 
globe.
    But I will not dwell on trade not because it is not 
important, but I know that Senator Blunt and others have raised 
this topic, and I want to raise other topics with you.
    But this is a reason why we need every market. And if we 
are going to engage in a potential war in China based upon 
tariffs, that means we need to be making certain that are other 
countries are our allies--the European Union, Mexico, and 
Canada, those who buy grain from us. We need to be engaged 
again in the Trans-Pacific Partnership (TPP), in trying to get 
those markets.
    We need to pick our battles, would be a point I would make 
to you. We need more trade agreements, not less. And if the 
President is interested in bilateral, let's get those bilateral 
trade agreements negotiated.
    On the other hand, this is the surplus. There is no such 
thing. I should not use that word. There is no surplus of 
grain. It can be consumed around the globe where people are 
starving.
    But this has a price consequence. Commodity prices are as 
dramatically challenging as they have been.
    Now we face a drought. I want to thank you for the decision 
to open up Conservation Reserve Program (CRP) for emergency 
haying and grazing. That will expire on April 15, just a few 
days away, and I would be interested, maybe save this for your 
response in writing, tell me what else the department is 
thinking about in regard to how to respond to drought. The 
emergency haying and grazing will be insufficient.
    Mr. Northey was in Kansas this past week, and we appreciate 
his visit to the drought-stricken areas of our State.

                 BROADBAND LOAN AND GRANT PILOT PROGRAM

    I want talk about RUS. We have had this conversation in 
passing. This is not a checking-the-box kind of question, to 
say that I said something. But over the years, I have seen RUS 
loans--and you now have additional authorities, monies that 
come from the omnibus spending bill that Senator Leahy 
mentioned.
    One of the things that I have seen happen--it transpired in 
the past, and it continues to occur--that I would complain 
about for two reasons. RUS makes loans or grants to those who 
are going to provide broadband services in underserved or 
unserved areas, and there are plenty of them in our State. But 
in doing so, they also allow that provider to overbuild in 
communities that already have broadband service.
    My complaint about that is, one, it does not emphasize, 
does not prioritize where the money desperately needs to be 
spent; and, secondly, it creates competition with the private 
sector who is already invested in putting fiber in the ground, 
cell towers, whatever the mode is for delivering that service.
    So we have put in the omnibus bill some parameters 
requiring that 90 percent of the residents live in a place that 
is not served, and I assume that you would assure me that when 
you develop the rules and regulations as you are doing that you 
will abide by those parameters.
    Let me explain why, again, we do not have this problem with 
the Federal Communications Commission (FCC) and Universal 
Service Fund, but when I have made these suggestions, these 
complaints to folks at RUS over the years, they tell me, no, 
they need the subsidy from those bigger communities in order to 
pay for the service in the smaller communities.
    My point to you and to them is the subsidy is what money we 
are providing to provide service in rural communities. It is 
not a matter of competing and taking business out of a 
community and taking those dollars to provide service in that 
smaller community.
    Does this issue resonate with you, make sense?
    Secretary Perdue. Yes, sir. It resonates with me, because 
we cannot afford duplication. We cannot afford duplicative type 
of programs. There is not enough money to go around to 
overbuild. You stated the fact that it destroys the economic 
model of the private sector investors there.
    So the $600 million that you all put in the omnibus and the 
parameters there, I think we will even enhance those 
parameters. We are looking for some of our cooperators to be 
the rural electrification associations and co-ops that serve 
those areas in your State and other States across the country 
to be our partners in that area, with specificity that this is 
not for overbuilding.
    Our new administrator of RUS comes from one of those rural 
co-ops, your neighbor to the east in Missouri, and has a great 
perspective of how we can get that done.

                 NATIONAL BIO AND AGRO-DEFENSE FACILITY

    Senator Moran. We are pursuing a meeting with Ken Johnson 
and understand that it is in the works, but he needs to arrive 
at his job before we can have that conversation. But it will be 
very similar to the one you and I had.
    In the 47 seconds that I have already overused my time, I 
would raise the topic with you, Mr. Secretary, about the NBAF, 
the National Bio and Agro-Defense Facility. The last 
appropriations bill is moving that authority from the 
Department of Homeland Security over time to the Department of 
Agriculture.
    That facility is located in Manhattan, Kansas. I look 
forward to having additional conversations with you and your 
team. If you can point the person to me who is responsible for 
NBAF at USDA, I would like to have dialogue with that person.
    Secretary Perdue. We will do that, as we have with Senator 
Roberts as well, who is vitally interested there. We think 
Kansas State will do a great job. We think the Department of 
Agriculture has a core competency to manage the NBAF facility, 
and we would love to have those conversations.
    By the way, your visual aid there, you have a Secretary of 
Agriculture who understands that was a pile of grain sorghum 
that was vulnerable to the washing machine and solar issues 
early on.
    Senator Moran. Ninety-nine points the price of grain 
sorghum dropped in my hometown of Plainville, Kansas, on the 
day the tariffs were announced.
    Secretary Perdue. We are very mindful of that.
    Senator Moran. Thank you, Mr. Secretary. Please come to 
Kansas.
    Senator Collins. Senator Tester.

                         CROP INSURANCE PROGRAM

    Senator Tester. Thank you, Madam Chair.
    And I want to thank you for being here today, Secretary 
Perdue. I very much appreciate hearing from you.
    I have a few thankyous. First of all, I thank you for your 
commitment to use commodities instead of cash. You are right 
on. I thank you for the work that you did on Brazilian beef. It 
took a lot of guts, and you did it, and you did it early. I 
think it set a standard that I very much like.
    The (CRP) part in your budget where it is 80 percent of 
fields will not work. If I have a 10-acre field, I am not going 
to put eight acres into CRP and farm the other two acres. 
However, 80 percent of whole farms will work, and I think that 
is a good policy. What we saw the 1980s was people putting 
whole farms in and a mass exodus from the land.
    So I thank you for your vision, and, hopefully, you have 
the same vision in that as I do.
    I want to talk about crop insurance, because when I go 
home, most people are pretty damn happy with the Farm Bill. 
They are. And they tell me unequivocally, ``Don't screw up crop 
insurance. It is our lifeblood. It is our safety net.''
    You know in this proposal, for the second year in a row, 
you are going to cut subsidies for crop insurance. I know there 
are some out there that do not understand agriculture that 
think that is just a good thing to do. You understand 
agriculture.
    I will tell you that it is unacceptable. And I want to know 
if this is real or if you have an expectation of us putting 
that money back in, and this is just a way to make the budget 
look better.
    Secretary Perdue. I think you have rightly articulated my 
view of crop insurance, certainly, and understand the value of 
it. I think it is one of the great programs in 2014 that was 
guided toward producer risk management that we can continue to 
utilize. I think, again, I support the crop insurance program 
and will support what you all added in 2018, to utilize that.

                             TRADE BARRIERS

    Senator Tester. All right. Thank you for that.
    I would just tell you that, and it has been expressed 
earlier, we did some stuff on direct payments, and we made crop 
insurance a better program, I believe. I would love to tell you 
that we do not need taxpayer dollars in that program. I think 
you would like it, too. But the truth is, we do. Otherwise, it 
will be unaffordable, and people will not use it. We are 
dealing with nature. We are dealing with volatile markets.
    And I want to talk about those volatile markets for a 
little bit. It has been touched on already.
    Mexico is the biggest importer of American grain in the 
country. They just signed an agreement with Argentina for 
30,000 tons of wheat late last year. Due to a number of 
reasons--probably the North America Free Trade Agreement 
(NAFTA) talks, maybe the border wall, maybe tariffs, and 
period--our largest trading partner Canada is uncertain.
    Look, there are a lot of things wrong with NAFTA, you and I 
both know. But I am going to tell you that, you pull out of 
this, it is going to be major havoc to the markets. You combine 
that with what is going on with TPP where I believe 11 nations 
signed it, the United States was not part of it, and one of the 
countries was not China, by the way, we have a series of things 
that are going on with the Administration that are not going to 
be helpful for farm gate prices.
    So if you combine that with the tariffs on steel and 
aluminum, and the fact that durum and cattle and other things, 
China said no, and it is a huge market. And as the Chairman 
said, we should be expanding them, not contracting them.
    But what I hear in the press is the President was going to 
say: You know what? Don't worry about it, farmers. We are going 
to give the responsibility to Secretary Perdue to make you 
whole.
    Not exactly those words, but that is what I hear. That 
means that we are going to be depending on more taxpayer 
dollars, not less. We just talked about the Administration's 
view of cutting aid for crop insurance, and now we are going to 
turn around and say, you know what? Because what I believe are 
uncertain trade policies, we are going to take more taxpayer 
dollars and reimburse farmers who do not want government 
subsidies as a general rule. They want their paycheck coming 
from the marketplace.
    Could you address what you are going to do when, in fact, 
these markets go to hell? Because they are going to, and they 
are.
    Secretary Perdue. Let's address what we will hopefully do 
to keep them from going wherever you said that they are going.
    Senator Tester. Well, the truth is, Sonny--and I really 
like you. You are really a good guy, and I mean that. I mean, 
you are a guy I would like to go have a beer with.
    But the truth is, what is going on right now is having 
impacts right now today. I had Lighthizer in my office. He said 
we are signing bilaterals. It has been 15 months. Has there 
been a bilateral signed? I do not know of any. But I but I know 
we backed out of TPP. I know we are talking about backing out 
of NAFTA. I know we are putting tariffs on Chinese goods.
    Look, China is a bad actor. They have been doing stuff. But 
you put me and my neighbors out of business in the process--I 
am not saying you personally, but the Administration--we have a 
major problem here.
    So I know it is to get a better deal. But in the meantime, 
those prices go to hell? We are done.
    Secretary Perdue. Let's talk about where we are on the 
trade negotiations again. I think we had a successful 
negotiation with Korea Free Trade Agreement (KORUS), and that 
will be announced very soon. Agriculture is better off, no 
worse off than we were with KORUS.
    We are expecting, Senator, an agreement on NAFTA that has 
some improvements for agriculture, maybe not all that we 
wanted, but some improvements with agriculture on NAFTA.
    I know that you and I probably would not use the same 
negotiating style that President Trump does, but it appears 
that even with China calling the question on some of these 
things--look, there is no doubt I am anxious. Producers are 
anxious. It is their livelihood. It is their future. But we do 
expect that we can get negotiations done on those. I think that 
will relieve the anxiety meter to a degree, and then deal with 
the China issue.
    Senator Tester. I will just tell you that we had some 
pretty damn good years from 2008 to 2014 in Montana because we 
had good prices and we had good production. The last 3 years 
have been pretty tough.
    If this tax on the margin--it is nonexistent. It is going 
to be--remember the 1980s. If this does not get solved pretty 
damn quickly, we are going to see a repeat of the 1980s.
    I do not want to see myself losing the farm or my 
neighbors. That is all. And I know you do not either.
    Secretary Perdue. I hear you, and I agree with you.
    Senator Tester. Thanks.
    Senator Hoeven [presiding]. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                  ORGANIC AGRICULTURE RESEARCH PROGRAM

    Welcome, Mr. Secretary. It is good to see you.
    American consumers are increasingly interested in knowing 
exactly where and how their food is produced.
    You mentioned the farm-to-table program, which is very 
popular in my State. What we are finding is that the demand for 
organic locally sourced products is reversing a decades-long 
trend away from agriculture in the State of Maine. Instead, we 
are seeing more people buying farmland and becoming involved in 
farming.
    So that is a great sign. Over the past 5 years, the number 
of certified organic operations in my State has grown by more 
than 75 percent, representing roughly 90,000 acres of organic 
cropland.
    So I am concerned that the President's budget request would 
completely eliminate the Organic Agriculture Research and 
Extension Initiative. Instead, in my judgment, we should be 
helping producers meet the growing demand for organic products.
    Could you please give us what the rationale is for 
eliminating the organic agriculture research program?
    Secretary Perdue. Senator, all I can tell you is I think, 
from the proposed budget, there are some deficiencies in the 
research overall, not just in the organic area.
    To their credit, you have to give the organic producers of 
this country, scratching and clawing over the last 15 years, 
building a $50 billion business and growing every year, a lot 
of credit for their ingenuity and creativeness and 
innovativeness in that area.
    Obviously, research is important to all of agriculture, 
including organic, and we look forward to using the research 
dollars you gave us in the omnibus budget to flesh out those 
areas as well as others.

                         MARKET ACCESS PROGRAM

    Senator Collins. I am hoping that we can take a look at the 
fiscal year 2019 budget and restore some funding in that area.
    Another important program to the producers and growers in 
my State is the Market Access Program. It really has been 
critical to the success of Maine farmers and fishermen as they 
work to find new markets and remain competitive in the global 
marketplace.
    This program has allowed our producers to greatly expand 
their markets and create more jobs at home by facilitating the 
promotion and sale of such iconic Maine products as wild 
blueberries in the Middle East, Maple syrup in Central Africa, 
and shellfish in the Far East. One of the Department's 
strategic goals is to promote American agricultural products 
overseas.
    Other Nations are moving forward on new trade agreements, 
and I am concerned that that is leaving American producers at a 
disadvantage. Let me give you an example that hits very close 
to home.
    Canada recently negotiated an agreement with the European 
Union called Canada Comprehensive Economic and Trade Agreement 
(CETA). And it has reduced tariffs to zero on live Canadian 
lobsters, and it will eliminate tariffs over a few years on 
frozen and processed Canadian lobsters. Well, you are not 
surprised to learn that Maine lobstermen are put at a huge 
disadvantage by this new agreement. And the lobster do not stop 
swimming when they reached Canadian waters and stay in the 
American side of the boundaries.
    But prior to the implementation of this new agreement 
between Canada and the European Union, Maine lobster dealers 
were successfully using the Market Access Program funds to find 
new buyers overseas. And I have proposed a bill that would 
actually double the funding for that program.
    In light of the current barriers to international trade and 
the many disruptive developments facing domestic agricultural 
sectors and our farmers and our fishermen, can you speak to the 
importance of maintaining robust funding for the MAP program in 
the years to come to help them deal with these new trade 
agreements?
    Secretary Perdue. I can, and I will, Senator. That is why 
we argued and fought to keep the MAP program whole at $200 
million. As I learned about it through the last year, the 
leverage we were getting from our private sector participants 
in the Market Access Program was significant, many times as 
much as sevenfold in that area. Oftentimes not as much for 
smaller industries that did not have the check-off dollars or 
the funds to do that.
    But there has been no doubt that it has been a very popular 
program among our commodity groups of a variety, not only the 
seafood.
    By the way, we are having direct discussions through 
Secretary Ross of Commerce, who is negotiating steel tariff and 
aluminum tariff discussions with EU over the specific seafood 
issues there as well and the new CETA arrangement, which puts 
us at a huge disadvantage not only on our seafood but other 
issues as well.
    So we are having direct discussions, candid and frank 
discussions, with the EU about those agreements.
    Senator Collins. I am very glad to hear that, and I look 
forward to working with you. Thank you so much.
    Senator Hoeven. Senator Udall.

                 BROADBAND LOAN AND GRANT PILOT PROGRAM

    Senator Udall. Thank you so much, Chairman Hoeven.
    Secretary Perdue, great to see you here today. It was a 
real pleasure to have breakfast with you in your office and to 
continue to visit about these important agricultural issues. We 
really appreciate your hard work and your care for the mission 
at the Department of Agriculture.
    Everyone on this dais and, frankly, nearly every Senator is 
concerned about the availability of broadband in our States' 
rural areas. I am pleased that the omnibus set aside $600 
million for a broadband pilot project, but that is just a drop 
in the bucket compared to the resources needed to build out in 
our hardest areas.
    I want to ask you for caution. It is imperative that your 
agency work closely with the other agencies that help support 
broadband buildout, including the Federal Communications 
Commission.
    The Rural Utilities Service loan programs are essential to 
helping small companies in New Mexico connect their customers, 
but we cannot support programs that overbuild other federally 
supported networks.
    Will you commit to working with me and with the FCC as you 
implement this pilot program?
    Secretary Perdue. Absolutely, Senator. That is one of our 
concerns.
    We deploy a good bit of Federal money into broadband right 
now, but it is done in a fairly nonstrategic type of way. We 
plan to use the resources that you gave us in the 2018 omnibus 
to direct that, along with partnerships. Our goal is to 
leverage that money, many times with rural cooperatives, in 
order to do that with the specific direction that it cannot be 
duplicative, and it cannot be overbuilding in other areas that 
create unwholesome competition in those areas where they are 
already served.
    So, absolutely. I am very grateful for the momentum and the 
interest that the Congress has in broadband. I think it is one 
of the most transformative issues we can have in the 21st 
century.
    Senator Udall. That is great. Thank you for that answer. 
Another issue is the time it takes to get pilots like these up 
and running.
    Will you commit to have the pilot project in place by the 
end of December 2018?
    Secretary Perdue. I do not want to put too much pressure on 
our people, but my expectations are much quicker than that. I 
am a sooner rather than later guy, and we think these pilots by 
the middle of the summer should be announced and taking 
applications.

                         ANTIBIOTIC RESISTANCE

    Senator Udall. Great. I am glad you are going to push it 
really hard, and get it up and running as soon as you can.
    Mr. Secretary, I am deeply concerned about the antibiotic 
overuse in livestock impacting the effectiveness of 
antimicrobials for use in animals and humans. I am interested 
in the work that USDA is doing to survey the use of antibiotic 
drugs in farm animals.
    How does the President's budget support these activities? 
Does this budget support activities that increase collaboration 
and coordination with the Food and Drug Administration to 
prevent antibiotic resistance? And if so, would you please 
summarize those activities?
    Secretary Perdue. First of all, I think you all, through 
the newest statutes there, have brought a new awareness to that 
with the prohibition over people just going and picking up 
something at the farm supply store and injecting antimicrobials 
into the food source. That is the biggest thing you hear about 
it overall.
    We are working in conjunction with FDA, our food service 
administration. Our Food Safety and Inspection Service monitors 
antimicrobial residue levels in that area, and we are 
collaborating with FDA in the overall effort.
    I think we have already seen--I don't have the numbers 
right at my fingertips, but we have already seen quite a bit of 
reduction there. I think you will see even more as the program 
matures.
    [The information follows:]

    The National Antimicrobial Resistance Monitoring System (NARMS) is 
a collaborative interagency partnership which includes state and local 
public health departments, the U.S. Food and Drug Administration (FDA), 
the Centers for Disease Control and Prevention (CDC), and the U.S. 
Department of Agriculture (USDA) Food Safety and Inspection Service 
(FSIS). This national public health surveillance system tracks changes 
in antimicrobial susceptibility of select foodborne enteric bacteria 
found in ill people (CDC), retail meats (FDA), and food animals (FSIS).
    FSIS collects and analyzes antimicrobial resistance data for the 
animal segment of NARMS through two programs: the Pathogen Reduction/
Hazard Analysis and Critical Control Point (PR/HACCP) verification 
program and the cecal sampling program. Samples from both programs are 
analyzed for Salmonella, Campylobacter, Escherichia coli, and 
Enterococcus. In 2014, FSIS began to move from a risk-based sampling 
approach to routine sampling of all establishments in the PR/HACCP 
verification programs, enabling the Agency to better evaluate 
prevalence and contamination trends in these commodities over time. In 
March 2013, NARMS began the cecal sampling program-a collaborative 
effort between the FDA's Center for Veterinary Medicine (CVM) and FSIS. 
Samples are collected from cecal contents at slaughter; these samples 
reflect the microbial characteristics of food animals prior to the 
application of in-plant antimicrobial interventions.
    While available data indicates continued effort is needed to limit 
the factors contributing to antimicrobial resistance, the following 
describes trends that suggest recent strides have potentially been made 
in reducing antimicrobial resistant bacteria in FSIS-regulated 
commodities:

    Antimicrobial resistant Salmonella

  --The proportion of ceftriaxone-resistant Salmonella declined between 
        2014 and 2016 among PR/HACCP cattle isolates (15 percent to 11 
        percent) and turkey isolates (10 percent to 7 percent). (NARMS 
        results from 2016 are the most recent available data.)
  --In cecal swine (market hogs and sows), ceftriaxone-resistant 
        Salmonella has remained below 5 percent since 2013.

    Antimicrobial resistant Campylobacter coli

  --The proportion of erythromycin-resistant Campylobacter coli 
        isolates declined between 2013 and 2016 in cecal chicken 
        samples (15 percent to 5 percent) and in cecal cattle samples 
        (5 percent to 1 percent).

    Antimicrobial resistant E.coli

  --The proportion of Trimethoprim Sulfamethoxazole-resistant E. coli 
        declined between 2013 to 2016 in cecal turkey isolates (10 
        percent to 4 percent).

    Senator Udall. Mr. Secretary, I hope you will put in the 
record the numbers that you cannot quite get off the top of 
your head now. I mean, I know this is a complicated area, but I 
hope you will answer this question more thoroughly for the 
record, so that we can see the kind of progress that you are 
making.

               REGIONAL CONSERVATION PARTNERSHIP PROGRAM

    And then just very quickly in the last couple seconds here, 
I am enormously impressed with the Regional Conservation 
Partnership Program (RCPP). As you know, there has been an 
effort in the President's budget to cut that. I hope, 
notwithstanding that request, that you will push, if we give 
you the moneys there, push to make sure that those are spent 
well.
    I just toured one of these projects. I invite you out to 
New Mexico to take a look at the really solid work that is 
happening with the RCPP.
    Secretary Perdue. We know, Senator, that waters do not 
recognize political boundaries. They affect all of us in 
watersheds. Gravity still works. And we believe in 
regionalization.
    Senator Udall. Thank you, Mr. Chairman.
    Senator Hoeven. Senator Baldwin.

                           TRADE DISRUPTIONS

    Senator Baldwin. Thank you, Mr. Chairman.
    Secretary Perdue, welcome. So you do not need me to tell 
you that the farmers of the State of Wisconsin are deeply 
concerned by the Chinese threats of tariffs and retaliation. 
Wisconsin producers of corn and soybeans, of pork, beef, 
ginseng and cranberries have all been in touch with me and my 
office to share with me the devastating impacts that they fear 
these tariffs could have on their business.
    As you also know, and I think some of my colleagues have 
questioned you about this already, the recently passed omnibus 
legislation provided your Department with additional resources 
to address the impacts of retaliatory tariffs on agricultural 
products.
    I support taking action to punish China for its cheating 
and to create a level playing field for American workers and 
farmers. But I also believe that the Trump Administration 
should act to prevent harmful retaliation against farmers in 
Wisconsin and across the country.
    So I am interested in knowing what specific steps you are 
going to take to help farmers who may be impacted by 
retaliation by China. And will you use the authorities provided 
in the recently enacted fiscal year 2018 agriculture 
appropriations bill?
    Secretary Perdue. We will, if needed. And we very much 
appreciate that.
    Obviously, our first goal is to negotiate ourselves out of 
the saber-rattling that has occurred and to make sure that 
these market disruptions do not have a permanent impact. There 
is enough anxiety, as you well know, already with lower 
commodity prices, trade disruptions, and disaster and drought 
and hurricanes. All those have a very cumulative stressful 
effect on our producers.
    So our goal, obviously, is to finish NAFTA, which is 
important to your State as well, and then to work on 
negotiations with China, so we do not have to get into 
mitigation efforts. But thankfully to you all in the 2018 
omnibus, you all gave us the liberty to use some of those tools 
at our disposal to make sure that our farmers do not bear the 
brunt of retaliation.
    Senator Baldwin. So I just want to dig a little deeper on 
this. I know there are a lot of what-ifs, because I agree, we 
want to negotiate our way out of the threats and possibility of 
retaliation. But have you determined what criteria you would 
use to ensure prompt action in support of farmers, if we get to 
that place?
    Secretary Perdue. What we have done so far is, on a weekly 
basis, look at the market impact. I have talked with our 
economists. Dr. Johansson may be able to describe more deftly 
what the calculations of determining the market trade impact or 
the trade dispute impacts are, versus normal or seasonal market 
disruptions.
    What we do not want to do is create an environment where we 
take normal trade fluctuations there and attribute them to 
trade disruptions in a retaliatory kind of way. Our economists 
tell us that we have very good tools, they feel very precise 
tools, to identify that.
    The authorities that you gave us in 2018, there is also 
Section 32 that I think cranberries have used before, that are 
possibilities to use.

                       MARGIN PROTECTION PROGRAM

    Senator Baldwin. Ginseng is another one that we are hearing 
threats about.
    So, as you know, our dairy industry is facing major 
challenges. We have low prices, oversupply of milk, and unfair 
trade practices from our Canadian neighbors, all at a time when 
other export markets are uncertain and the NAFTA market is 
being debated, at least market access.
    I have two questions, now that dairy farmers can enroll in 
the Margin Protection Program with the revisions, the lower 
costs and better coverage, and I want to make sure that our 
farmers have the chance to get enrolled.
    So on these two topics, the status of the Administration's 
effort to follow through on President Trump's promise to ensure 
Canada changes its unfair dairy pricing scheme, and, number 
two, what are you doing to get the word out about this 
enrollment period and to help farmers have really high-quality 
information about the expansion and improvements in the MPP and 
dairy insurance options?
    Secretary Perdue. I think the good news is, I was just on 
an RV tour last week through Ohio, Michigan, and Kentucky, and 
word travels pretty fast in the agriculture sector. The dairy 
members that showed up for those hearings understood already. 
We had made the announcement about the application, and they 
know about the ability to go back to January 1, and we know 
that it has already been triggered there.
    So dairy-men and -women have to be pretty good business 
people. They have already calculated they want to sign up. It 
has been pretty widely distributed. The information should be 
out at our FSA offices already. They have specific FAQs over 
the various components there.
    But we think it will be a program that the dairy industry 
will flock to, unlike the previous one. The MPP had kind of 
gotten a bad name. I think you all have helped to retool it in 
a way that they understand it can be very helpful.
    Certainly, we have impressed upon Ambassador Lighthizer 
almost on a weekly basis how important it is to get the dairy 
situation with Canada. He has some larger issues. I think we 
would love to have any other help in impressing upon the 
Ambassador how important it is to make sure that the dairy 
situation in regard to Canada is also resolved. I am not as 
optimistic as I would like to be.

                           TRADE DISRUPTIONS

    Senator Baldwin. Mr. Chairman, I know my time has run out. 
May I just put in one more question? Thank you so much.
    Secretary Perdue, I mentioned Wisconsin products like 
cranberries and ginseng. They do not have futures markets. So 
without this price indicator information, our producers are 
concerned that USDA will not have the data and information it 
needs to respond to the retaliatory tariffs, if they occur, 
until it is too late.
    So I want to ask, how is the USDA monitoring the impact of 
tariffs on specialty crops like cranberries and ginseng?
    Secretary Perdue. If you do not mind, I would like to ask 
Dr. Johansson to tell us how we monitor the cash prices when 
there is no future or board there to do that.
    But we have a pretty good discovery price network through 
our National Agricultural Statistics Service (NASS) program of 
looking at markets every year, but he will have a more precise 
answer.
    Dr. Johansson. Thank you, Senator, for the question and, 
Secretary, for giving me an opportunity to say a couple words.
    Certainly, with respect to some of the specialty crops, we 
do not have futures prices, so we rely on price signals that we 
get from the Agricultural Marketing Service (AMS), for example, 
that are out there asking what market prices are. We know what 
the trade value is for those commodities going to China, 
because they are certainly tracked through our trade data. And 
we know what it will mean if we face a 25 percent tariff on 
some of those commodities.
    So we will use the tools that we would normally use in any 
kind of trade dispute to analyze what the potential effects 
would be.
    Senator Baldwin. Thank you.
    Thank you, Mr. Chairman.
    Senator Hoeven. Mr. Secretary, thanks very much for being 
here and for allowing all of our members to ask you questions 
and for your responses.
    Just in closing here, we want to again emphasize crop 
insurance as an absolute number-one priority for our producers 
out there. We hear it day in and day out. I know you do, too. 
You heard about it when you were out in North Dakota.
    Certainly, a very important aspect to that is preventive 
plant. You are going to see, with the late spring, you are 
going to see need for preventive plant this year.
    And also, on the school meals, the flexibility that our 
schools need on whole grains, on sodium, and on milk 
requirements, I know you were working on those regulations, and 
I know you understand that need for flexibility, so I 
appreciate that.
    Is anything else that you want to provide for the record 
before we wrap up here?
    Secretary Perdue. I think we have already submitted, but we 
will be happy to address any of the unanswered questions and 
things that your members mentioned for the record.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Hoeven. Right. Members have a week to provide 
additional questions that they may have, which they can submit 
in written form.
    We would ask that you and your staff respond within 4 
weeks, if that seems reasonable.
    I think, with that, I will finish on the note that I always 
do, and that is that our farmers and ranchers provide the 
highest quality, lowest cost food supply in the world that 
every American benefits from every single day, and we need good 
farm policy to support their efforts that are so important to 
us.
    Thank you to Dr. Johansson. Thank you to Ms. Jones.
    And, Secretary, thank you for being here and for your 
advocacy for agriculture.
    Secretary Perdue. Thank you, Mr. Chairman.
            Questions Submitted by Senator Susan M. Collins
                        snap harvest food boxes
    Question. Mr. Secretary, SNAP funding is critically important in 
Maine, where one in five children are food insecure. Last year, 189,000 
Mainers representing 14 percent of the state population received SNAP 
benefits. The President's fiscal year 2019 budget proposes cutting 
monthly SNAP benefits in half and replacing them with the America's 
Harvest Food Box program.
    I have heard concerns about the logistics of implementing such a 
proposal from organizations such as The Good Shepherd Food Bank in 
Auburn, Maine, which distributes roughly 21 million meals across the 
state each year and also participates in the Commodity Supplemental 
Food Program that delivers similar food packages to seniors at their 
homes. Regularly delivering hundreds of thousands of Harvest Food 
Boxes--especially in more rural states like Maine--would require a 
sophisticated network of organizations and infrastructure and could 
result in unanticipated costs.
    Mr. Secretary, can you explain in greater detail the logistics 
behind implementing the Harvest Food Box program, particularly in rural 
states like Maine?
    Answer. SNAP State agencies would be responsible for the 
administration of the program at the State level and would partner with 
USDA to determine and implement the most efficient food box 
distribution model. States would be able to customize their delivery 
models to consider special circumstances such as rural locations. As is 
currently done for other USDA nutrition assistance programs, USDA would 
purchase staple, shelf-stable foods (such as shelf-stable milk, juice, 
grains, ready-eat-cereals, pasta, peanut butter, beans, canned meat, 
poultry or fish, and canned fruits and vegetables) and have them 
delivered to States. States would then be given substantial flexibility 
in deciding how to deliver the food benefits to participants, for 
example through existing infrastructure, partnerships, and/or through 
commercial and/or retail delivery services.
                 maine lobster industry trade obstacles
    Question. The Foreign Agriculture Service's Market Access Program 
(MAP) provides critical support to U.S. exporters that enable them to 
promote their products globally, but these programs alone cannot 
compensate for broad tariff discrepancies.
    As the Maine lobster supply has increased in the last 10-15 years, 
lobstermen, lobster wholesalers, and lobster processors have 
aggressively pursued new markets for these products around the world. 
Exports have driven strong demand, and without strategic trade 
agreements, the Maine lobster fishing community stands to lose 
opportunities to its Canadian counterparts. The Comprehensive Economic 
and Trade Agreement (CETA), for example, create preferential treatment 
for seafood shipped from Canada to the EU. Historically, US lobster 
wholesalers and processors have been the majority suppliers to the EU 
market but are now at risk of losing that market.
    What steps can USDA take to better support U.S. lobster, seafood, 
and agricultural producers that distribute their products into Europe 
and now face a considerable disadvantage in that market?
    Answer. Opening new export markets are clearly one of the best ways 
to sustain the vitality of American producers, and USDA remains 
confident that ongoing negotiations with our trading partners will be 
successful. Reflecting the strong message we heard from our 
constituents, the updates to The U.S.-Korea Trade Agreement (KORUS) 
strengthened that agreement for our workers without harming market 
access for U.S. agriculture. The President also directed us to seek 
significant changes to NAFTA, and those talks continue. We have a trade 
working group with the United Kingdom as it prepares to withdraw from 
the European Union. We have told Japan that we are interested in having 
a bilateral free trade agreement. We are exploring possible countries 
in Africa and Southeast Asia with whom it might be appropriate for us 
to enter into model free trade agreements. USDA is, and will remain, an 
active partner in these negotiations as we also continue our work with 
the rest of the U.S. government to enforce our existing agreements. If 
the European Union decides to come to the table to try and fix some of 
the longstanding disparities we face selling into that market, you can 
be assured that improved access for U.S. agricultural products will be 
a top priority and that we will share your priorities with our trade 
negotiators.
    Question. Furthermore, the Maine lobster industry benefits from 
fluid trade with Canada due to the timing of the supply of fresh-caught 
live lobster in both countries and thus has concerns about the 
potential impact of NAFTA to this trade relationship.
    Given that one of the USDA's strategic goals is to promote American 
agricultural products and exports, can you please provide an update on 
NAFTA and the efforts being made to ensure that the existing trade 
relationship between the Canadian and American lobster industries is 
not negatively affected by these negotiations?
    Answer. The United States is working to secure the best possible 
deal for American farmers, workers and businesses as we work to update 
the North American Free Trade Agreement (NAFTA). We will not rush to 
conclude an agreement that does not fully meet congressional and 
Administration objectives. To date, substantive discussions have 
concluded in nine chapters of the Agreement and six sectoral annexes. 
We have also made significant progress in several other chapters. In 
these areas, we have secured ambitious, TPP-plus commitments. However, 
significant challenges remain in many areas of our modernization and 
rebalancing agenda, including rules of origin, intellectual property, 
agricultural market access, labor, dispute settlement, and others. 
Trade Ministers of the three countries are in regular contact and are 
considering how to advance the negotiations. In the meantime, the 
current NAFTA agreement remains in place.
                     specialty crop programs (ams)
    Question. Specialty crops, including Maine potatoes and wild 
blueberries, constitute half of all crop value in the U.S. and provide 
regional economic development as a high-value enterprise for rural 
communities. I am encouraged that the budget request includes strong 
funding for Specialty Crop Block Grants, particularly since the fiscal 
year 2018 budget request proposed to eliminate this important program. 
Maine farmers were deeply concerned by that proposal. In addition, I am 
encouraged that the request proposes increasing funding for the 
Specialty Crop Research Initiative, which funds quality research 
projects that address long-term and emergency needs in the specialty 
crop industry.
    Is USDA committed to funding these critical Specialty Crop programs 
moving forward?
    Answer. It is wonderful to hear that you value the Specialty Crop 
Block Grants and the Specialty Crop Research Initiative. With available 
funding, USDA is committed to funding Specialty Crop programs.
                     support for forestry research
    Question. With the recent decline of the pulp and paper industry in 
Maine, state officials and industry stakeholders have been working 
together to create opportunities for new and expanded forest products 
businesses, a more diversified forest economy, high value exports, and 
increased jobs and wages.
    According to a 2017 report from The Blue Ribbon Commission on 
Forest and Forest Products Research and Development in the 21st 
Century, Federal research capacity in the forest sector has fallen by 
half in 30 years. As such, I am concerned that the fiscal year 19 
budget request proposes to reduce funding for critical forestry 
research activities.
    For example, the budget proposes to reduce funding for the U.S. 
Forest Service's Northern Research Station (which covers a twenty state 
region across the Midwest and Northeast) by $12 million. According to 
researchers at the University of Maine, the Research Station is already 
operating at a deficit, jeopardizing several existing joint venture 
agreements. In addition, the budget proposes to reduce funding for 
McIntire-Stennis Cooperative Forestry grants by $5 million. These 
grants are crucial for increasing forestry research in the production, 
utilization, and protection of forestland; training future forestry 
scientists; and involving other disciplines in forestry research.
    What is the Department's justification for proposing to reduce 
funding for forestry R&D at a time when the industry is facing 
obstacles to growth and working to expand new forest products markets?
    Answer. The fiscal year 2019 President's Budget required hard 
choices for the Forest Service--one of which was to propose reduced 
funding for Forestry Research and Development and focus funding on the 
management of National Forest System lands. The Budget demonstrates the 
President's commitment toward achieving major goals such as rebuilding 
our military, sustaining 3 percent economic growth, deregulation, and 
ensuring American families keep more of their hard-earned money through 
tax reform.
    Question. Is the Department taking steps to facilitate growth and 
expansion of the forest products industry?
    Answer. The fiscal year 2019 President's Budget proposes to 
maintain the funding level for the Forest Products Laboratory (FPL). 
The FPL focuses on collaborative work intended to maximize the use of 
forest products coming from all the Nation's forests.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                         mcgovern-dole program
    Question. If the drought in Kansas and across other areas of the 
country continues or intensifies, what steps (beyond allowing emergency 
haying and grazing on CRP) will USDA take to help producers in the 
summer and fall of 2018?
    Answer. USDA will continue to provide assistance to drought-
affected producers through the following programs:

        Emergency Watershed Protection (EWP) Program.--EWP provides 
        recovery assistance to help local communities and private 
        landowners relieve imminent hazards to life and property caused 
        by drought, windstorms, wildfire, and other occurrences that 
        impair a watershed. The funding can also be used to reseed 
        drought-stricken areas that would be prone to erosion and could 
        potentially pose a threat to life or property.

        Environmental Quality Incentives Program (EQIP).--EQIP provides 
        financial resources and technical support to help producers 
        conserve scarce water resources, reduce wind erosion on 
        drought-impacted fields, improve livestock access to water, and 
        recover from drought-related natural disasters like wildfire.

        Conservation Technical Assistance (CTA).--CTA provides one-on-
        one, personalized advice and planning support to help drought-
        affected farms and ranchers increase their resiliency by 
        recommending and providing technical assistance implementing 
        practices that protect crop and forage yields from weather 
        extremes.

        Conservation Reserve Program (CRP).--Emergency haying and 
        grazing of CRP allows participants to continue to receive CRP 
        rental payments and provides needed forage during times of 
        drought.

        Emergency Conservation Program (ECP).--ECP provides emergency 
        funding and technical assistance to farmers and ranchers to 
        rehabilitate farmland damaged by natural disasters, such as 
        drought, or to implement emergency water conservation measures 
        during periods of severe drought.

        Emergency Assistance for Livestock, Honeybees, and Farm-Raised 
        Fish Program (ELAP).--ELAP provides assistance to livestock 
        producers that suffer losses resulting from the additional cost 
        of transporting water to livestock including, but not limited 
        to, costs associated with water transport equipment fees, 
        labor, and contracted water transportation fees.

        Livestock Forage Disaster Program (LFP).--LFP provides 
        financial compensation to eligible livestock producers who have 
        suffered grazing losses for covered livestock on land that is 
        native or improved pastureland with permanent vegetative cover 
        or is planted specifically for grazing.

        Noninsured Crop Disaster Assistance Program (NAP).--NAP 
        provides financial assistance to producers of crops for which 
        Federal crop insurance is not available to protect against 
        natural disasters, such as drought, that result in lower yields 
        or crop losses, or that prevent crop planting.

        Tree Assistance Program (TAP).--TAP provides disaster 
        assistance to eligible orchardists and nursery tree growers to 
        replant or rehabilitate trees, bushes, and vines that are lost 
        because of an eligible natural disaster, such as drought.

        Emergency Loan (EM) Program.--The EM program provides low-
        interest loans to family farmers who have suffered a production 
        or physical loss resulting from a natural disaster, such as 
        drought.

    Question. Will USDA consider allowing emergency haying and grazing 
on CRP, including on acres enrolled in CP-25, during the 2018 primary 
nesting season due to drought conditions?
    Answer. USDA may approve emergency haying and grazing on CRP, 
including acres enrolled in CP-25, during the primary nesting season 
under certain conditions. I understand the importance of providing 
farmers and ranchers with the option to emergency hay or graze their 
CRP land during times of drought.
    Question. The fiscal year 2018 and fiscal year 2019 budgets claim 
McGovern-Dole International Food for Education and Child Nutrition 
Program ``is duplicative of U.S. Agency for International Development 
(USAID) programs, lacks evidence that it is being effectively 
implemented, and has unaddressed oversight and performance monitoring 
challenges.''
    What specific school feeding program within USAID does McGovern-
Dole duplicate?
    Answer. In 2014, USDA and USAID signed a medum of understanding to 
leverage and complement programs, and USDA is an active member of 
USAID's Reinforcing Education Accountability in Education Act to 
develop a strategy.
    Question. What steps has USDA taken to improve the implementation 
of McGovern-Dole and address any oversight and performance monitoring 
challenges?
    Answer. We have not yet begun to formulate the fiscal year 2020 
budget. In response to a Government Accountability Act report, USDA 
implemented a monitoring and evaluation (M&E) policy in May 2013. The 
policy is updated regularly; the most recent major update related to 
the nutrition indicators. All implementing partners are required to 
adhere to the M&E policy, which includes expending no less than 3 
percent of total project funds on M&E. All the implementing partners 
must execute baseline, midterm and final evaluations using third party 
evaluators and report biannually on their progress on indicators set 
forth in their projects.
    Question. Why did those actions not result in the claim being 
removed from the fiscal year 2019 budget proposal?
    Answer. The Administration believes that further improvements can 
be made in the program oversight and performance evidence. The claim 
was not removed from the fiscal year 2019 budget because substantial 
steps had not been taken to monitor and evaluate projects and share 
data publically since USDA implemented the M&E policy in May 2013.
    Question. What steps will USDA commit to take to improve 
implementation of McGovern-Dole and address any oversight and 
performance challenges to avoid having the claim repeated in the fiscal 
year 2020 budget proposal?
    Answer. We have not yet begun to formulate the fiscal year 2020 
budget. Beginning in fiscal year 2018, all McGovern-Dole awards are 
required to contribute to the McGovern-Dole Learning Agenda, which 
builds the evidence base on school meal programs and supports adaptive 
management for improved performance. USDA is updating its Monitoring 
and Evaluation Policy and Indicator Handbook and will continue to 
collect regular performance data from all McGovern Dole projects, and 
will commit to sharing that data publically, including on the FAS 
website and in congressional reports such as the McGovern Dole annual 
report and the congressional budget justification. USDA is also 
investing in rigorous studies to generate evidence of the effectiveness 
of the McGovern Dole program, which will be directly applied to 
performance improvement in the future.
    Question. USDA's food purchases for The Emergency Food Assistance 
Program (TEFAP) are down in 2018 compared to previous years. Have fewer 
Section 32 funds been used to purchase surplus commodities for TEFAP in 
2018? What, if anything, is USDA doing to expedite USDA TEFAP bonus 
commodity purchases?
    Answer. FNS works with the Agricultural Marketing Service on 
purchases of commodity food products that are delivered to schools, 
food banks and households in communities across the country. USDA 
intends to provide high quality services to our customers and recently 
announced a new streamlined purchasing process for bonus commodity 
purchases for the nutrition assistance programs, including The 
Emergency Food Assistance Program. As of the date of this hearing and 
using this new process, USDA will make up to $177.4 million in timely 
purchases of products, including pork, tart cherries, dried peas, 
cheddar cheese, peaches, tomatoes, prunes, pinto beans, lentils, 
blueberries, and raspberries. This is comparable to past years' planned 
purchase totals for the same time period.
    Question. USDA is conducting a study regarding USDA field offices. 
In most cases, conservation districts in Kansas share space/leases in 
these offices. The conservation districts are concerned how they might 
be affected by a reorganization of USDA at the service center level. 
The conservation districts have not been included in the USDA office 
study. Due to the valuable contributions conservation districts provide 
to help NRCS deliver conservation programs, why have they not been 
included in these discussions?
    Answer. The realignment of FSA, NRCS, and RMA into the newly-formed 
FPAC Mission Area will not impact the longstanding agreements we have 
in place with conservation districts to share office space. The core of 
the Optimally Productive Office study was a rigorous analysis of FSA's 
and NRCS's productivity rates at the county levels. We are looking at 
how efficiently and effectively FSA and NRCS are serving farmers, 
ranchers, and forest stewards across the country based on core 
deliverables, products, and metrics.
    We are also in the process of evaluating the impact of key 
variables (e.g., historical and forecasted customer demand) to inform 
the level and types of capabilities needed to meet producers' needs and 
optimize staffing distributions over time. Incorporating additional 
variables, such as driving distances and producer demographics, will 
inform how scaling staffing (upwards or downwards) may impact the 
communities we serve.
    Because the primary focus of this study is to analyze productivity, 
we had not previously asked conservation districts to provide specific 
metrics (e.g., their cycle time for delivering core products). We are, 
however, incorporating the number of partners' full-time equivalents in 
aggregate to evaluate their impact on FSA's and NRCS's overall 
productivity rates and ability to achieve mission success.
    Question. A number of management positions, as well as county 
office positions, are vacant at Kansas NRCS and FSA. There are growing 
complaints across Kansas regarding delays and lack of staff who can 
offer guidance and make decisions regarding conservation programs, 
technical assistance, and FSA loans. What is USDA doing to expedite 
hiring to fill these vacant positions so that USDA can better serve 
Kansas producers?
    Answer. NRCS and FSA began filling positions in February 2018 as 
work began concurrently on the analytical staffing tool to better 
inform hiring decisions. NRCS and FSA used version 1 of the tool to 
fill approximately 800 positions in high priority functions and areas. 
Additional positions will be filled in August and September 2018, 
utilizing version 2 of the analytical staffing tool. At least 90 
percent of the hires are focused on state and field level staff who 
work directly with farmers and ranchers.
                      business and industry loans
    Question. I understand that a rationing scheme will begin on May 1 
for the Business and Industry loan program because the demand for loans 
exceeds the expected available resources.
    The fiscal year 2018 appropriations bill added $10 million to the 
Rural Business Development Grants--can a portion of those funds could 
be used to back B&I loans by applying more budget authority to the 
program?
    Answer. Yes, RBS could have requested a reprogramming of funds from 
Congress, however, RBS chose to keep funds allocated as specified by 
Congress.
    Question. Can USDA move toward zero subsidy, which is the 
methodology used in the SBA program?
    Answer. RBS is currently considering whether the policy goals of 
the program support a ``zero-subsidy'' or fee-based approach like the 
SBA program.
    Question. What other actions can USDA take to avoid rationing B&I 
loans?
    Answer. To ensure funding meets demand, RBS has directed the States 
to fund projects identified under the B&I unnumbered letter, which 
directs State Directors and Program Directors to award administrative 
Priority Points to projects that support the five ``Calls to Action'' 
identified in the Report published by the Interagency Task Force on 
Agriculture and Rural Prosperity.
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
                         unfair trade practices
    Question. What actions are you and Under Secretary for Trade and 
Foreign Agricultural Affairs, Ted McKinney, taking to support 
Ambassador Lighthizer's efforts in the NAFTA renegotiations to allow 
seasonal and perishable produce growers, including many in Florida and 
Georgia, to more easily challenge, and defend themselves against, 
unfair Mexican agricultural trade?
    Answer. USDA is working closely with others in the Administration 
to advocate for effective solutions to current problems, while 
preserving the important agricultural markets that we created through 
NAFTA.
    Question. How does the fiscal year 19 budget request impact USDA's 
ability to continue funding detection, research, and control to combat 
citrus greening?
    Answer. The citrus greening efforts are very important to USDA. 
Three agencies are currently participating in these efforts, and I have 
asked for more specific information be provided for the record.

        APHIS.--The fiscal year 2019 request provides funding to allow 
        APHIS to focus on maintaining producers' access to export 
        markets, continuing survey activities by shifting more 
        responsibility to States and industry partners, facilitating 
        domestic movement of fruit and plant materials, and preventing 
        the spread of HLB into commercial production areas of 
        California. In fiscal year 2019, APHIS will continue to use 
        funds Congress provided for the HLB MAC under General Provision 
        Sec. 771 in the fiscal year 2018 appropriation to further 
        develop tools to control, manage, and prevent citrus greening.

        NIFA.--Under the 2014 Farm Bill (FB), funds were allocated to 
        the Emergency Citrus Disease Research and Extension (CDRE) 
        under The Specialty Crop Research Initiative (SCRI) through 
        fiscal year 2018. Per the FB there are no specific allocations 
        to CDRE under SCRI in fiscal year 2019. NIFA intends to build 
        on the success of the CDRE by investing resources from SCRI 
        moving forward. In addition, funds from the Agriculture and 
        Food Research Initiative and the Crop Protection/Pest 
        Management programs could be used to address citrus research 
        and extension activities as well as the various capacity 
        research and extension programs implemented at the state level.

        ARS.--The President's fiscal year 2019 budget request would 
        maintain ARS funding for citrus greening research, to detect, 
        mitigate, and combat citrus greening at the fiscal year 2018 
        Enacted Budget level of $2.3 million. ARS will continue to 
        conduct innovative research to detect, mitigate, and control 
        citrus greening in fiscal year 2019 according to the capacity 
        provided by available budgetary resources. Research includes 
        crop resistance, insect management, suppression of the disease-
        causing bacterium, and predictive models that help state 
        agencies survey and monitor the disease.

    Question. What USDA programs or research initiatives are being 
prioritized to address the next major invasive threat to Florida 
agriculture--in whatever form that may be--so that folks on the ground 
are better prepared?
    Answer. Florida is a gateway to the United States for invasive 
species, so we have numerous research initiatives designed to protect 
and prepare Florida agriculture, and U.S. agriculture as a whole, from 
major invasive threats. I have asked for more specific examples be 
provided for the record.
    For example, the Agricultural Research Service's (ARS) Mosquito and 
Fly research program in Gainesville, Florida, conducts research on 
improved surveillance and control of mosquitoes and biting flies, 
including the development of new and improved mosquito and fly traps, 
skin and clothing repellents, insecticides, genetic technologies, 
resistance management, and models to predict risk of disease outbreaks 
from invasive pathogens such as Rift Valley Fever (RVF). Introduction 
of RVF into Florida would be devastating to the Florida cattle 
production industry due to the impact of disease on cattle and the 
mosquito species present in Florida, which are very effective at 
transmitting RVF. ARS also partners with the American Phytopathological 
Society to prioritize new and emerging pathogens that threaten U.S. 
agriculture. The Animal and Plant Health Inspection Service (APHIS) and 
ARS then prepare Response Plans and Recovery Plans for those threats, 
such as from Citrus Leprosis, Citrus Greening (Huanglongbing), Citrus 
Black Spot, Citrus Variegated Chlorosis, Laurel Wilt of Avocado, and 
Cucumber Green Mottle Mosaic Virus, all of which constitute major 
invasive threats to Florida agriculture. Further, the Oriental Fruit 
Fly (OFF), a highly invasive tropical pest, destroys more than 400 
types of fruits and vegetables including many important to Florida 
agriculture and U.S. agriculture as a whole. OFF has been detected 
frequently in Florida and California, each detection triggering 
expensive quarantine and eradication programs. In fiscal year 2018, ARS 
embarked on new research on OFF control in Miami, Florida. ARS, in 
collaboration with APHIS, will apply advanced robotics, 
nanotechnologies, and other methods to develop improved detection 
methods and systems to reduce the risk of OFF establishment and spread 
to Florida and elsewhere in the United States.
    In addition to efforts by ARS, the National Institute of Food and 
Agriculture (NIFA) has several capacity and competitive programs that 
invest in research and extension activities focused on the invasive 
species in Florida. For example, NIFA has provided funding to the 
University of Florida and Florida Agricultural & Mechanical University 
for research and extension work on: integrated management of major 
arthropod pests of tropical fruit crops in south Florida; biology and 
management of arthropod pests of vegetable and small fruits; integrated 
management of major diseases of vegetable and herb crops important to 
south Florida; strategic research for the biological control and 
ecological-based management of invasive insect pests and weeds; 
biological control of invasive insect pests with fungi; and developing 
disease tolerance (e.g., Pierce's disease) for Florida grape varieties.
    Question. Can you speak to USDA's commitment to helping reduce 
America's seafood trade deficit through domestic aquaculture?
    Answer. Although the U.S. aquaculture industry is a small producer 
on a global scale, it is a vibrant and growing industry providing 21 
percent of the seafood produced in the United States by value ($1.4 
billion farm-gate value per year). Aquaculture is already important in 
some regions of the United States where oyster, mussel, clam, fish, and 
seaweed farms are creating jobs and helping to keep working waterfronts 
alive. Ensuring this momentum continues and accelerates is key to the 
Administration's commitment to create jobs and expand a safe, secure, 
and sustainable U.S. seafood supply now and into the future.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
                              conservation
    Question. I have a letter from Western farmers, ranchers, 
sportsmen, and conservation organization that are all deeply concerned 
about the proposed budget cuts to conservation programs. Why does the 
budget propose to cut the Regional Conservation Partnership Program 
when these efforts are really helping agriculture producers and others 
on and off farm conservation needs and stabilize the Colorado River 
basin?
    Answer. We support providing assistance to address natural resource 
concerns facing the Nation's farmers, ranchers, and nonindustrial 
private forest landowners. The budget proposal reflects an interest in 
streamlining programs that address similar concerns. Since the Regional 
Partnership Program draws its funding from the four ``covered'' 
programs (such as the Environmental Quality Incentives Program and 
Agriculture Conservation Easement Program), NRCS anticipates that it 
will continue to provide assistance and support the conservation needs 
of Western producers, including those in and around the Colorado River 
Basin.
    Question. How do you plan to ensure that the 2018 Farm Bill 
contains adequate funding and new tools to expand USDA's efforts to 
enhance drought resiliency and water conservation?
    Answer. USDA is committed to providing technical assistance to the 
Agriculture Authorizing Committees as they draft the 2018 Farm Bill. 
One of our many Farm Bill principles is to streamline conservation 
programs, including working lands programs, to achieve efficiencies and 
maximize producer benefits. This includes enhanced drought resiliency 
and water conservation. Furthermore, we continue to promote the 
benefits of healthy soils to promote clean air and water. Extreme 
weather, such as drought, in the last few years has highlighted the 
need for soil health management. We plan on implementing efficiencies 
within existing programs and continuing to provide assistance through 
our conservation planning process. Additionally, we will be developing 
products that highlight the economic benefits of soil health for 
distribution throughout the agriculture community.
    horse protection act (hpa)/animal welfare act (awa) transparency
    Question. Mr. Perdue, at the beginning of February, APHIS abruptly 
removed from its website thousands of pages of searchable inspection 
reports, annual reports, and other documents regarding enforcement of 
the Horse Protection Act and the Animal Welfare Act. Public access to 
this data ensures accountability for the agency's enforcement of these 
laws and acts as deterrence against violations.

        It is essential that the public be able to see which dog 
        dealers, horse trainers, laboratories, roadside zoos, and other 
        regulated entities have been cited for subjecting animals in 
        their care to abuse or otherwise failing to meet basic welfare 
        standards. Responsible actors in the regulated communities want 
        to be able to point to their clean records that help them 
        establish public trust.

    When will the agency restore these vital records and resume posting 
them in a timely way on a searchable database with names and cities 
identified?
    Answer. In July 2016, APHIS initiated a comprehensive review and 
update of the USDA Animal Welfare and Horse Protection Act program 
website, publications, and correspondence to eliminate out of date 
content, improve the information provided, and balance its commitment 
to transparency with applicable laws, including rules protecting 
personal privacy. In August 2017, APHIS announced improvements to the 
Agency's Animal Care Information System (ACIS), which allows APHIS to 
make animal welfare information publicly available on the APHIS website 
and ensure compliance with all applicable laws. The improvements to 
ACIS are ongoing, and APHIS will notify stakeholders as additional 
information becomes available. We anticipate completing the updates and 
having all information available before the end of calendar year 2018. 
With regards to the Horse Protection program, USDA does not use the 
same report format under the Horse Protection Act (HPA) and has never 
posted equivalent HPA records to its website.
                              horse soring
    Question. The last Administration proposed an important rule to 
update Horse Protection Act regulations to finally end the cruel 
practice of horse soring--inflicting pain on the hooves and legs of 
Tennessee Walking Horses and related breeds to force them to perform an 
artificial high-stepping gait. The rule was designed to fix serious 
weaknesses in USDA's oversight of this law enacted almost 50 years ago. 
This rule had overwhelming, bipartisan Congressional support from 42 
Senators and 182 Representatives who sent letters to USDA, along with 
more than 100,000 public comments submitted in support.
    Mr. Perdue, will you commit to reviewing this broadly supported 
proposed rule, and inform us promptly about your intentions regarding 
final publication?
    Answer. In July 2016, USDA issued a proposed rule amending the 
Horse Protection Act (HPA) regulations to establish a USDA-administered 
training and licensing program for industry inspectors and to prohibit 
the use of pads and other action devices in Tennessee Walking Horses 
and Racking Horses. USDA received and carefully reviewed 130,975 
comments. Consistent with Executive Order 13777, USDA has taken 
meaningful steps to reduce regulatory burdens on the American people 
and promote economic growth, as reflected in the Current ``Unified 
Agenda of Regulatory and Deregulatory Actions''. Although the rule is 
on the inactive list for Current Regulatory Plan and Unified Agenda for 
Regulatory and Deregulatory Actions, USDA continues to develop other 
solutions to improve compliance with the HPA. We are working closely 
with horse industry inspectors and USDA inspectors, providing learning 
opportunities for the regulated community, and will continue to fulfill 
our regulatory responsibilities under the HPA to the greatest extent of 
our authorities. USDA continues to conduct inspections at horse shows 
and other covered events to monitor the performance of industry 
inspectors and assess compliance with the HPA. USDA also pursues 
appropriate sanctions for alleged HPA violations. In fiscal year 2017, 
for example, we initiated 75 cases, issued 213 official warnings, and 
obtained 88 administrative orders assessing $113,000 in civil 
penalties.
                                food aid
    Question. Could you please explain to what extent the procurement 
and shipment of Title II commodities today compares with similar 
operations over the past several decades, especially in reference to 
the time necessary for commodities to reach food insecure populations 
once the need for assistance is recognized?
    Answer. USDA and USAID work closely together on the provision of 
Title II food assistance abroad, which has evolved from the 
distribution of surplus U.S. in-kind commodities to, in recent decades, 
distributing U.S. commodities purchased on the open market.
    Shipping U.S. commodities from the U.S. to beneficiaries overseas 
takes between three and 6 months. In an effort to reduce these times, 
USAID pre-positions in-kind food in four key locations overseas as well 
as in Houston, Texas. However, as maintaining secure, safe warehouses 
for food around the world comes with additional costs, USAID limits the 
number of its pre-positioning warehouses to locations closest to 
regions where there are recurrent crises and the types of commodities 
it can effectively store.
    In addition to U.S. in-kind commodities, USAID also employs market-
based food assistance interventions to support its responses where 
appropriate. Often, buying food closer to a crisis will get it to those 
in need more quickly. When USAID buys food regionally or locally, it 
takes one to 2 months to reach beneficiaries, and is on average 20-30 
percent cheaper than U.S. commodities due to decreased shipping, 
delivery, and related costs. When markets are functioning, food 
vouchers and cash transfers allow hungry families to buy food directly 
in local markets. These tools are especially useful for refugee 
populations, for example, as it can be challenging to reach 
beneficiaries with normal food distributions due to frequent 
displacement. Section 202(e) of the Food for Peace Act, as amended by 
The Agricultural Act of 2014 (i.e., the 2014 Farm Bill), authorized 
USAID to use a limited amount of funds to enhance existing Title II in-
kind programs through these market-based interventions where 
appropriate to reach more beneficiaries in a timely manner or fill gaps 
until U.S. commodities arrive. With this authority, USAID is able to 
reach more beneficiaries more quickly each year.
    Question. What problems or delays exist today that create problems 
in providing food assistance in a timely manner and identify if 
remedies to such problems require a policy, regulatory, or statutory 
response.
    Answer. Global hunger and food crises often occur in difficult and 
remote locations. USAID faces many obstacles to improving the speed and 
cost-effectiveness of aid delivery, ranging from political challenges, 
such as working in countries in conflict, to programmatic challenges, 
such as reaching beneficiaries located in insecure or remote locations 
or who are more often dispersed within a wide area or forced to move 
with some frequency in an evolving conflict. In these circumstances, 
electronic transfers and cash/vouchers are far more timely and 
effective than in-kind food aid.
    Shipping U.S. commodities overseas can be more expensive than other 
food assistance modalities. For example, U.S. food assistance programs 
are subject to cargo preference laws and regulations, which require 
that at least 50 percent of all food assistance be shipped on U.S. 
flagged vessels providing that vessels are available at fair and 
reasonable rates. In some cases, the U.S.-flagged fleet cannot provide 
the services necessary to deliver food to required locations. In fiscal 
year 2017, USAID received no U.S.-flagged vessel bids for over 253,620 
metric tons of Title II commodities, and U.S.-flagged regular direct 
services do not exist to most of the destination ports for Title II 
commodities. Further, USAID typically pays substantially more per 
metric ton for U.S.-flagged vessels as compared to shipping commodities 
on foreign--flagged vessels, thus reducing USAID's ability to address 
ongoing and unanticipated global food needs.
    Question. What lessons can be learned from the U.S. private 
sector's ability to move commodities internationally that can be 
applied to food aid shipments? What changes would be required to allow 
food aid agencies, including our many NGO partners and international 
organizations like the World Food Programme, the ability to employ 
those same efficiencies in the pursuit of saving lives?
    Answer. The private sector continues to innovate and find new ways 
to cost-effectively address the rise in demand for shipping products, 
including through new technologies to better track and ensure the 
security of shipments, and is looking increasingly to apply its methods 
to development and humanitarian contexts. Leveraging the private 
sector's logistics and transport expertise and working collaboratively 
with private sector leaders helps generate new ideas and solutions in 
tackling global hunger.
    USAID seeks to increase its engagement with the private sector in 
efforts to better serve populations in need. USAID continues to explore 
ways to find efficiencies in its programs that would allow it to reach 
more beneficiaries with available resources. For example, during the 
past two fiscal years, USAID has supported a food safety and packaging 
project with the UN World Food Program (WFP) focused on improving the 
packaging, quality, and shelf life of food assistance products to 
ensure beneficiaries are being reached with the highest quality 
nutritious food through USAID's programs. Private sector suppliers and 
analytics companies are working in partnership with WFP and USAID to 
meet these objectives. These changes, however, we have not yet 
determined the impact of these changes on the costs of food aid.
                      business and industry loans
    Question. Mr. Secretary, does USDA anticipate a shortfall in the 
Business and Industry Loan Program based upon the fiscal year 18 
funding level?
    Answer. No, RBS has put in place a funding process to ensure funds 
will be available through the end of the fiscal year.
    Question. If there will be a shortfall, will USDA submit a 
reprogramming of funds to address the shortfall?
    Answer. At this time, the Department does not anticipate a 
shortfall in funding, so the Department does not expect to have to 
submit a reprogramming of funds.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                 trade
    Question. Secretary Perdue, the trade actions under Section 232 and 
the retaliatory tariffs put in place by China have disproportionately 
hit California producers, removing markets and causing great distress 
for fruit, nut, and wine producers.
    Can you provide specific details on what USDA is doing to assist 
producers who are now facing challenges due to lack of foreign markets?
    Answer. President Trump is standing up to China's abusive trade 
practices like intellectual property theft. China wrongly believes it 
can bully our farmers to get America to back away from defending our 
national interests. The President understands that our farmers feed, 
fuel, and clothe this Nation and the world, and he will not allow U.S. 
agriculture to bear the brunt of China's retaliatory tactics.
    There is no denying that the disruption in trade relations with 
China is unsettling to many in agriculture, but if the President 
succeeds in changing China's behavior, America's farmers will reap the 
benefits.
    In the meantime, the President instructed me to craft a short-term 
relief strategy to protect agricultural producers while the 
Administration works on free, fair, and reciprocal trade deals to open 
more markets in the long run to help American farmers compete globally. 
At USDA, we have tools at our disposal to support farmers faced with 
losses that might occur due to downturns in commodities markets.
    I recently announced that we will take several actions to assist 
farmers in response to trade damage from unjustified retaliation. 
Specifically, USDA will authorize up to $12 billion in programs, which 
is in line with the estimated $11 billion impact of the unjustified 
retaliatory tariffs on U.S. agricultural goods. These programs will 
assist agricultural producers to meet the costs of disrupted markets.
    This is a short-term solution to allow President Trump time to work 
on long-term trade deals to benefit agriculture and the entire U.S. 
economy. The President promised to have the back of every American 
farmer and rancher, and he knows the importance of keeping our rural 
economy strong. Unfortunately, America's hard-working agricultural 
producers have been treated unfairly by China's illegal trading 
practices and have taken a disproportionate hit when it comes to 
illegal retaliatory tariffs. USDA will not stand by while our hard-
working agricultural producers bear the brunt of unfriendly tariffs 
enacted by foreign nations. The programs we announced help ensure our 
nation's agriculture continues to feed the world and innovate to meet 
the demand.
    Of the total unjustified retaliatory tariffs imposed on the United 
States, a disproportionate amount was targeted directly at American 
farmers. Trade damage from such retaliation has impacted a host of U.S. 
commodities, including field crops like soybeans and sorghum, livestock 
products like milk and pork, and many fruits, nuts, and other specialty 
crops. High tariffs disrupt normal marketing patterns, affecting prices 
and raising costs by forcing commodities to find new markets. 
Additionally, there is evidence that American goods shipped overseas 
are being slowed from reaching market by unusually strict or cumbersome 
entry procedures, which can affect the quality and marketability of 
perishable crops. This can boost marketing costs and discount our 
prices, and adversely affect our producers. USDA will use the following 
programs to assist farmers:

  --The Market Facilitation Program, authorized under The Commodity 
        Credit Corporation (CCC) Charter Act and administered by the 
        Farm Service Agency, will provide payments incrementally to 
        producers of soybeans, sorghum, corn, wheat, cotton, dairy, and 
        hogs. This support will help farmers manage disrupted markets, 
        deal with surplus commodities, and expand and develop new 
        markets at home and abroad.
  --Additionally, USDA will use CCC Charter Act and other authorities 
        to implement a Food Purchase and Distribution Program through 
        the Agricultural Marketing Service to purchase unexpected 
        surplus of affected commodities such as fruits, nuts, rice, 
        legumes, beef, pork and milk for distribution to food banks and 
        other nutrition programs.
  --Finally, the CCC will use its Charter Act authority for an 
        Agricultural Trade Promotion Program administered by the 
        Foreign Agriculture Service in conjunction with the private 
        sector to assist in developing new export markets for our farm 
        products.

    Question. Will USDA be using its authorities under the Commodity 
Credit Corporation to make purchases of large quantities of produce 
that can no longer be sold for profit in one of the largest export 
market for U.S. growers?
    Answer. Section 5 of the Commodity Credit Corporation (CCC) Charter 
Act authorizes USDA to provide funding to assist farmers suffering from 
damage due to unjustified trade retaliation by foreign nations. The 
Market Facilitation Program, Agriculture Trade Promotion Program, and 
Food Purchase and Distribution Program will be made available to affect 
this assistance. On September 4, 2018, local FSA offices will began 
taking MFP applications that apply to 50 percent of the total 
production of covered commodities. USDA will reevaluate the trade 
situation in early December to determine if a second payment is 
warranted. Through the ATPP, $200 million will be made available to 
develop foreign markets for U.S. agricultural products. The program 
will help U.S. agricultural exporters identify and access new markets 
and will help mitigate the adverse effects of other countries' 
restrictions. Under authority provided to the Secretary by the CCC 
Charter Act, the AMS will purchase up to $1.2 billion in commodities 
under its Food Purchase and Distribution Program (FPDP).
    Question. What outreach is USDA doing to producers who are facing 
the difficult decision of what to do now that China has imposed 
retaliatory tariffs on 94 U.S. food products?
    Answer. As part of its extensive overseas reporting network, USDA 
has expedited release of public reports from our overseas offices on 
new import restrictions imposed by foreign governments. This 
information is made available as soon as possible to players throughout 
the agricultural sector, including the traditional agricultural press 
and producer organizations. In addition, USDA officials are in regular 
contact with producer groups to keep tabs on the impact of these 
actions. This open communication channel will be essential in helping 
us design any response that may be necessary.
    Discussions about marketing alternatives in light of trade 
disruptions have been on-going with MAP and FMD participants. In 
addition, USDA continues an increasingly aggressive schedule of 
Agribusiness Trade Missions that include participants from a wide-
variety of companies, agricultural associations, and State Departments 
of Agriculture. Recent trade missions to Guatemala and Japan included 
more than 150 participants and generated $55.4 million in projected 12-
month sales. A total of 17 California companies participated in the 
Guatemala and Japan ATMs, and the California Department of Agriculture 
participated on the Japan mission. Additional trade missions are being 
planned for South Africa, South Korea, Colombia, Mexico, Vietnam, 
Canada, Taiwan, United Kingdom/Ireland, and Kenya. The trade missions 
provide participants an effective way to investigate new markets and 
introduce new products into current markets.
                           disaster recovery
    Question. California experienced its worst wildfire season on 
record in 2017. More than 1.2 million acres burned in our state, and 
thousands of homes were destroyed. There was also significant damage to 
farmland and important watersheds.
    Congress passed a disaster supplemental that included more than 
$2.3 billion in agricultural disaster assistance for the victims of the 
hurricanes and wildfires in 2017.
    Can you provide an update on what assistance, particularly related 
to rural development programs, has been provided to individuals, 
families, businesses, and other entities in California?
    Answer. USDA will begin sign-up by no later than July 16, 2018 for 
the 2017 Wildfire and Hurricane Indemnity Program to assist impacted 
farmers and ranchers. Losses due to conditions caused by last year's 
wildfires and hurricanes, including excessive rain, high winds, 
flooding, mudslides, fire, and heavy smoke, could qualify for 
assistance through the program.
    The $2.36 billion that Congress appropriated through the Bipartisan 
Budget Act of 2018 was implemented through USDA's Farm Service Agency 
through the 2017 Wildfires and Hurricanes Indemnity Program (2017 
WHIP), not Rural Development. The Bipartisan Budget Act of 2018 also 
provided additional financial assistance for the Rural Housing 
Insurance Fund Program Account and the Rural Water and Waste Disposal 
Program Account, however those funds were namely available for those 
areas impacted by Hurricanes Harvey, Irma and Maria, not wildfires in 
California or elsewhere. In addition, Rural Development is working with 
borrowers in the affected areas to help with the needs for water and 
waste systems and multifamily housing properties that got devastated 
with the 2018 Hurricanes.
                           forest management
    Question. As part of the fiscal year 2018 omnibus appropriations 
bill, Congress enacted a comprehensive wildfire budget fix in addition 
to several new management provisions and additional funding for forest 
management work.
    I have written several letters to you proposing ways the Forest 
Service could assist California with the more than 129 million dead and 
dying trees in our state.
    Can you provide an update on the number of NEPA-ready acres that 
are ready for work in California?
    Answer. In fiscal year 2018, there are 37,000 NEPA-ready acres in 
the high hazard zones on National Forest System lands in California.
    Question. How many acres does the department plan to complete work 
on this year?
    Answer. In fiscal year 2018, approximately $19 million has been 
allocated to National Forests in California, which are experiencing 
high rates of tree mortality. Treatments cost between $1,000 and $2,500 
per acre, and the Forest Service will treat as many acres as possible 
within available appropriations, with the goal of reducing risk to the 
public.
                           pathogen standards
    Question. A recent GAO report (GAO-18-272) recommended several 
actions the Food Safety Inspection Service (FSIS) could take to enhance 
our food safety system.
    While FSIS has developed pathogen standards for several types of 
meat products that are widely consumed, there has been significant 
delay in implementing new standards for additional products such as 
several pork cuts and turkey parts.
    Does FSIS have plans to identify acceptable pathogen levels for 
these widely available products, and if so, what is the timeframe to 
develop those standards?
    Answer. With regard to pork cuts, as FSIS explained to GAO, FSIS is 
collecting data on pork products, including pork cuts, through an 
exploratory sampling program. Under this program, FSIS samples and 
tests pork products for Salmonella and other microbial indicator 
organisms. In 2019, FSIS will analyze the data collected through this 
exploratory sampling program, along with FSIS baseline data and 
outbreak/illness data to determine whether standards or additional 
policies (e.g., training, guidance to industry, or instructions to 
field personnel) are needed to address Salmonella in pork products.
    FSIS also explained to GAO, that the reason the Agency chose to 
focus on chicken parts and not on turkey parts is because chicken parts 
constitute about 85 percent of the poultry available to consumers. 
Further, the amount of chicken parts derived from chicken carcasses is 
larger than that of turkey parts derived from turkey carcasses. In 
addition, FSIS has found that chicken carcasses are more contaminated 
with Salmonella and Campylobacter than are turkey carcasses (80 FR 
3940). For example, in 2008, FSIS found that broiler carcasses had a 
Salmonella prevalence of 7.5 percent, while 2009 turkey carcasses had a 
Salmonella prevalence of 1.7 percent. Given the lower consumption by 
consumers of turkey parts as compared to chicken parts, and the lower 
contamination of turkeys in general compared to chickens, FSIS made a 
risk-based decision not to develop performance standards for turkey 
parts.
                   antibiotic use and data collection
    Question. As you know, antibiotic resistance is a serious public 
health threat. I strongly supported the FDA's move to ban the use of 
antibiotics for growth promotion purposes, and I look forward to the 
positive impact this policy change will have.
    Part of the effort to better understand the risks associated with 
antibiotic use and resistance is through on-farm surveillance and data 
collection. The Animal and Plant Health Inspection Service's National 
Animal Health Monitoring System (NAHMS) is an important initiative that 
should be prioritized, as it is implementing standardized antibiotic 
use data collection in commodities central to production agriculture, 
studying the microbial ecology associated with feeding antimicrobials 
to food-producing animals, and developing database and data storage 
standards to support the collection and management of laboratory data 
for routine reporting.
    Can you confirm that this important work will continue to be 
prioritized?
    Answer. In fiscal year 2019, USDA will continue to address on-farm 
surveillance and data collection associated with antibiotic use and 
resistance. The Agency has developed several initiatives to enhance 
data collection and management and the understanding of on-farm levels 
of antibiotic usage. This includes a pilot program, which began in 
fiscal year 2017, to study antimicrobial resistance data tracking 
processes at a national level; educational modules and outreach 
materials for the stewardship and judicious use of antimicrobials; and, 
increasing the depth of data collection for animal pathogens on swine 
and feedlot operations.
    USDA will continue to conduct surveys on commodities central to 
production agriculture, including cattle and swine operations, to 
characterize antibiotic use and to study the microbial ecology 
associated with feeding antimicrobials to food-producing animals. The 
Agency is conducting these surveys as part of the National Animal 
Health Monitoring System. USDA also launched a pilot in the National 
Animal Health Laboratory Network (NAHLN) to examine resistance patterns 
in samples submitted from sick animals. The NAHLN laboratories are 
performing antibiotic susceptibility testing on isolates for 
Escherichia coli, Salmonella enterica, Mannheimia haemolytica, and 
Staphylococcus intermedius in cattle, swine, poultry, horses, dogs, and 
cats. In fiscal year 2017, the antimicrobial use data collected on 
swine and cattle feedlot operations in the 2016 calendar year, was a 
benchmark for studying use changes over time. Repeating these studies 
over time will allow USDA to describe changes in on-farm antimicrobial 
use and stewardship over time by estimating the percent of swine/
feedlot cattle operations that use and receive antimicrobials in feed 
or water. The data collected for the antimicrobial use studies are 
currently undergoing validation and analysis, and results will be 
available in at the end of fiscal year 2018. This information will help 
the veterinary practitioner with antibiotic choices.
    Question. Can you please provide an update on how NAHMS, and other 
efforts to collect data on antibiotic use on food producing animals, 
are progressing?
    Answer. The Agency has developed several initiatives to enhance the 
understanding of on-farm levels of antibiotic usage. This includes a 
pilot program, which began in fiscal year 2017, to study antimicrobial 
resistance data tracking processes at a national level; educational 
modules and outreach materials for the stewardship and judicious use of 
antimicrobials; and, increasing the depth of data collection for animal 
pathogens on swine and feedlot operations.
    In fiscal year 2018, USDA launched a pilot in the National Animal 
Health Laboratory Network (NAHLN) to examine resistance patterns in 
samples submitted from sick animals. The NAHLN laboratories are 
performing antibiotic susceptibility testing on isolates for 
Escherichia coli, Salmonella enterica, Mannheimia haemolytica, and 
Staphylococcus intermedius in cattle, swine, poultry, horses, dogs, and 
cats. In fiscal year 2017, the antimicrobial use data collected on 
swine and cattle feedlot operations in the 2016 calendar year, was a 
benchmark for studying use changes over time. Repeating these studies 
over time will allow USDA to describe changes in on-farm antimicrobial 
use and stewardship over time by estimating the percent of swine/
feedlot cattle operations that use and receive antimicrobials in feed 
or water. The data collected for the antimicrobial use studies are 
currently undergoing validation and analysis, and results will be 
available in at the end of fiscal year 2018.
    Question. Can you provide an update on USDA's work to advance 
research on antibiotic stewardship?
    Answer. In fiscal year 2017, the antimicrobial use data collected 
on swine and cattle feedlot operations in the 2016 calendar year, was a 
benchmark for studying use changes over time. Repeating these studies 
over time will allow USDA to describe changes in on-farm antimicrobial 
use and stewardship over time by estimating the percent of swine/
feedlot cattle operations that use and receive antimicrobials in feed 
or water. The data collected for the antimicrobial use studies are 
currently undergoing validation and analysis, and results will be 
available in at the end of fiscal year 2018. This information will help 
the veterinary practitioner with antibiotic choices.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                         cuts to staff at usda
    Question. Last year when you came before this Committee, I asked 
you about the unreasonable staff cuts to USDA's programs--specifically 
the cuts to frontline employees who help make sure our farmers and 
ranchers operate day to day. In the budget this year, you propose to 
cut many of those same field staff again. I appreciate the efforts of 
your staff to work to fill 7 positions in my state of New Mexico, but 
frankly that is not enough. When you were here last you stated and I 
quote, ``those front line workers are the most important.'' You also 
stated, and I quote, ``Many of these offices only have 2 people.'' 
Well, in many of my New Mexico offices, there are no people to provide 
NRCS and Farm Service Agency assistance because these positions have 
not been filled--and now this budget recommends cutting them.
    Secretary Perdue, if those frontline workers are ``the most 
important,'' why do you propose cutting them again this year?
    Answer. NRCS and FSA employees provide an extraordinary level of 
customer service at the local county offices, and I continue to be 
impressed with the quality of service they provide.
    While the Administration's budget proposal did incorporate staffing 
reductions, any such reductions would be made through natural 
attrition. We will manage any staffing reductions to ensure that our 
customer's needs are met and to strive to balance our staffing 
resources with other investments, such as information technology, to 
improve the customer service that the nation's farmers, ranchers, and 
forest stewards rely upon. We will begin to utilize phase 1 of a 
staffing analysis tool and will make improvements to the tool later 
this year. This staffing analysis tool will help us to place human and 
technological resources based on demand and customer preference, to 
utilize taxpayer dollars as efficiently and effectively as possible.
    Question. Follow up: I appreciate your efforts to modernize and 
move many of the USDA FSA and NRCS services online, but the FCC 
estimates that 80 percent of the 24 million Americans households that 
don't have reliable and high-speed Internet are located in rural areas. 
How do you expect to transition all these services online, when the 
Internet connectivity is not reliable for rural America? Does that not 
underscore the importance of keeping these rural staff?
    Answer. While we agree there is a need for online services from FSA 
and NRCS and are impressed with the response to farmers.gov, we also 
recognize reliable, high-speed, and cost-effective high-speed Internet 
service is not uniformly available in all rural areas. We are 
encouraged by the $600 million provided in the Consolidated 
Appropriations Act of 2018 for new broadband loan and grant pilot 
programs and will continue to support efforts to boost rural economies.
    Question. Reorganization: Last year, you reorganized the Department 
and eliminated the Under Secretary for Rural Development, replacing the 
position with a non-Senate confirmed ``Assistant to the Secretary''. In 
this hearing last year, you said that you would welcome Congress to 
create an undersecretary of Rural Development in the farm bill. Do you 
stand by that?
    Answer. Yes, I stand by those earlier comments.
                           rural development
    Question. On April 25th of last year, the president issued 
Executive Order ``Promoting Rural Prosperity''. And in your budget 
justification to Congress, you include ``facilitating rural prosperity 
and economic development'' as one of seven strategic goals. However, 
the budget also proposes massive cuts in discretionary spending for the 
Rural Business Cooperative Service and the Rural Utilities Service. The 
Rural Utilities Service provided telecom, electric, and waste water 
grants totaling more than $778 million my state of New Mexico from 2009 
to 2016. These grants are for essential infrastructure in rural areas.
    How does eliminating the program help achieve your stated goal of 
rural prosperity?
    Answer. Rural Development (RD) works with a variety of rural 
communities and other Federal agencies to ensure rural areas have 
resources to provide clean, safe water for those who live and work in 
rural areas. The budget did not request funding for USDA's Water and 
Waste Disposal Loan Guarantee and Grant program but did request funding 
for the Water and Waste Disposal Direct Loan program. Also, RD 
requested funding for EPA's state revolving fund account that can be 
used to improve drinking water quality. The President's Interagency 
Task Force on Agriculture and Rural Prosperity, our commitment to rural 
America, and work with Congress will help us to make the best use of 
resources allocated to Rural Development to improve the quality of life 
in rural areas. For the Electric Program and Telecommunication 
Programs, the budget reflects the fiscal priorities that create the 
largest economic impact at the least cost to the taxpayers.
                       usda workplace misconduct
    Question. Mr. Perdue, I know the U.S. Department of Agriculture, 
Office of Inspector General issued a new interim report, which includes 
recommendations to improve the process for investigating sexual 
harassment and misconduct complaints within the U.S. Forest Service.
    It has been reported that it takes 462 days to complete the 
internal assessment process about a reported misconduct. What are you 
doing to address this extremely long process?
    Answer. Most investigations are closed out in fewer than 60 days, 
however, some cases take longer to reach final decision as penalties 
need to be agreed upon prior to closure. To alleviate some of the 
delays incurred in certain cases, the Forest Service has been adding 
new case managers to their anti-harassment staff. These case managers 
will be a resource to employees who have cases in process and they will 
also serve as process ``navigators'' to keep cases moving, thereby 
avoiding delays.
    Question. What are you doing to ensure there are adequate processes 
in place to report sexual misconduct, to protect survivors and 
whistleblowers from retaliation, and to ensure perpetrators are held 
accountable?
    Answer. Beginning in November of 2017, a harassment reporting 
center was established to receive all reports of harassment from across 
the Forest Service. This center is open seven days per week and is 
staffed by skilled and trained contractors to handle the reports of 
harassment. In addition, the Forest Service has established an anti-
harassment program that is used to share information on what 
constitutes sexual misconduct, how to report sexual misconduct, 
including sexual harassment, expectations following a report of sexual 
misconduct harassment, specifically including for the inquiry or 
investigation process.
    Question. What is the agency doing to improve its workplace 
environment?
    Answer. The Department and the Forest Service have taken numerous, 
proactive steps to address work environment issues. Since 2015, and 
intensifying in the past several months, the Forest Service has put 
significant effort into advancing a safe, respectful, resilient work 
environment where employees are treated with respect and dignity. A new 
position was created in the Chief's office as of January 2018 to serve 
as the Senior Advisory on the work environment and that position 
integrates all agency efforts to improve the work environment. 
Furthermore, the Department, led by the Office of the Assistant 
Secretary for Civil Rights, has been providing additional oversight of 
the actions taken to ensure that improvements are being made to the 
workplace environment.
    Question. Will you commit to looking into contracting with an 
independent third party to address reported misconduct?
    Answer. Yes, the Department is committed to bringing in outside 
experts to address the reported misconduct.
               supplemental nutrition assistance program
    Question. One of every five New Mexicans counts on the food stamps 
to make sure they don't go to bed hungry. New Mexico has the third 
highest percentage of SNAP recipients in the nation, after Washington, 
D.C. and Mississippi. In addition, New Mexico has a persistently high 
unemployment rate--currently the second highest in the nation at 5.8 
percent. Because of this economic situation, New Mexico currently has a 
statewide waiver from SNAP's time limit for able-bodied adults without 
dependents.
    How would your proposals for the time limit affect New Mexicans?
    Answer. The President's fiscal year 19 budget proposal has three 
key legislative proposals related to the able-bodied adults without 
dependents (ABAWD) time limit. These proposals would strengthen SNAP 
work requirements, consistent with the goal of helping people move 
toward self-sufficiency through work. I have asked FNS to provide more 
detail for the record.

        Limit ABAWD waivers.--This proposal would limit ABAWD waivers 
        to counties with an unemployment rate greater than 10 percent 
        averaged over 12 months. As fewer areas would qualify for time 
        limit waivers, ABAWDs residing in those areas would be required 
        to work or train for work or participate in a work program in 
        order to maintain SNAP eligibility. ABAWDs that do not comply 
        would lose their benefits after 3 months for up to 36 months.

        Modify age limit definitions.--This proposal would increase and 
        streamline the age limit to 62 for ABAWDs, those subject to the 
        general work requirements, and those who are considered 
        elderly. Under this proposal, more SNAP participants would be 
        subjected to ABAWD and general work requirements.

        Eliminate 15 percent exemptions.--This proposal prevents States 
        from using 15 percent exemptions to provide additional months 
        of SNAP benefits to ABAWDs who are not meeting the program's 
        work requirements. More ABAWDs will be required to work or 
        participate in a work program at least 20 hours per week, or do 
        workfare, in order to receive SNAP.

    Question. If more people who are out of work would lose benefits, 
how does the Administration propose to expand work opportunities--
especially in states like New Mexico that have persistently high 
unemployment?
    Answer. All States are required to operate a SNAP Employment and 
Training (E&T) Program designed to assist SNAP recipients gain skills, 
training, or experience that will increase their ability to obtain 
regular employment. States have a great deal of flexibility in 
designing SNAP E&T programs that best meet the needs of their SNAP 
recipients and the local employers. They may choose from an array of 
services such as job search, job search training, workfare, work 
experience, basic education, vocational training, on-the-job training, 
and retention services. States are allocated a portion of $90 million 
in 100 percent administrative funds but are also reimbursed 50 percent 
of non-Federal funds that they spend over and above that amount. FNS 
will continue to provide technical assistance to States to help them 
create robust E&T programs. This includes identifying good training 
providers that have existing relationships with employers to ensure 
that the training SNAP recipients receive is valued by businesses in 
their local economy.
    Question. Do you believe children should not eat [or receive food 
stamps] if their parents are unable to find work and waivers for states 
are revoked?
    Answer. The statutory work requirements for able bodied adults 
without dependents do not apply to individuals under 18 (children) or 
parents with responsibility for a dependent child. The President's 
fiscal year 2019 budget does not propose to change these statutory 
exemptions. Children and parents with dependents would continue to be 
exempt from the work requirement and their eligibility for SNAP would 
not be affected by the work-related proposals in the President's 
budget.
    Question. SNAP-Ed: USDA proposes to eliminate funding for SNAP's 
nutrition education component (SNAP-Ed). New Mexico received $3.8 
million for this initiative in fiscal year 2017, and six local 
implementing agencies used these funds to provide nutrition education, 
including cooking and food budgeting skills, throughout the state. Why 
does the Administration want to end these activities?
    Answer. The President's budget includes a proposal to eliminate 
SNAP Nutrition Education as it is duplicative; nutrition education is 
already accessible from private industry, non-profits, and other 
government programs. The America's Harvest Box will ensure a base of 
nutritious staple foods for SNAP households, which encourages 
nutritious eating without requiring additional education on healthy 
diet choices.
    Question. Without this important program, how do you recommend that 
SNAP households improve their diet quality and make use of their 
limited food budgets?
    Answer. The President's budget includes a proposal to eliminate 
SNAP Nutrition Education as it is duplicative; nutrition education is 
already accessible from private industry, non-profits, and other 
government programs. The America's Harvest Box will ensure a base of 
nutritious staple foods for SNAP households, which encourages 
nutritious eating without requiring additional education on healthy 
diet choices.
                   rural development benchmark report
    Question. Under the new administration, USDA has so far not 
completed a report for 2017. Does the Department plan to release one?
    Answer. USDA is committed to addressing critical needs in rural 
communities particularly, the issue of persistent poverty. Rural 
Development has drafted a report on rural poverty that is completing 
Departmental clearance. We expect to submit the final report to the 
Committee in the immediate future.
                         conservation programs
    Question. Do the reductions the Administration proposes in the 
President's fiscal year 2019 budget for conservation programs that are 
authorized to receive mandatory funding indicate that the 
Administration does not support these conservation programs and their 
reauthorization in the upcoming farm bill debates?
    Answer. We support conservation efforts on private working lands 
and will work to implement conservation provisions authorized by 
Congress. One of our Farm Bill principles is to streamline conservation 
programs for working agricultural lands, which will provide better 
service to our customers.
                 national agricultural imagery program
    Question. Has the USDA made a decision about the licensing data 
from private companies for NAIP?
    Answer. The decision to change the acquisition strategy to a 
commercial-off-the-shelf data provider, aka licensed data model, has 
been postponed until after fiscal year 2019. USDA continues to explore 
funding options with the Office of Management and Budget to continue 
the program as a public domain model.
    Question. Has the USDA conducted any analysis of the budgetary and 
operational impact that the loss of public NAIP data would have on 
Federal agencies, state and local government, public universities, non-
profits or private sector? If so, can you provide us with that 
analysis?
    Answer. The Federal Geographic Data Committee's National Digital 
Orthoimagery Program Subcommittee will be gathering data on the impacts 
to Federal agencies if the National Agriculture Imagery Program is 
changed to a commercial-off-the-shelf data provider. The decision to 
change from the current public domain acquisition strategy to using a 
commercial-off-the-shelf data provider will not be made until after 
fiscal year 2019.
                         antibiotic resistance
    Question. Secretary Perdue, I am deeply concerned about antibiotic 
overuse in livestock impacting the effectiveness of antimicrobials for 
use in animals and humans.
    Will you please outline how the department intends to maintain 
robust data collection while it cuts funding for the USDA's Animal and 
Plant Health Inspection Service's?
    Answer. USDA works with State and Federal partners to promote the 
judicious use of antimicrobials and to maintain robust data collection 
of antimicrobial use. USDA runs the National Animal Health Monitoring 
System (NAHMS), which conducts national studies on the health and 
health management of United States domestic livestock and poultry 
populations. In 2017, NAHMS included surveys on antimicrobial use and 
stewardship practices in feedlots and swine operations for the first 
time, and the data collected from these surveys will help guide 
antimicrobial stewardship efforts at USDA and other partners in both 
the public and private sectors. The Agency intends to repeat the study 
biennially, monitoring changes in on-farm antimicrobial use and 
stewardship practices. At the proposed funding level, USDA will not 
expand the studies to other commodity groups outside of cattle feedlots 
and swine operations, but will continue to promote judicious use of 
antibiotics, and leverage the remaining resources across agencies for 
activities in the areas of surveillance, research, education, and 
extension/outreach.
    Question. How does this budget request promote the continued 
coordination with the Food and Drug Administration on the issue of 
antibiotic use in animals?
    Answer. In fiscal year 2019, USDA will continue to collaborate with 
the Food and Drug Administration to improve the National Antimicrobial 
Resistance Monitoring System database to detect emerging trends of 
antibiotic resistance; coordinate input on World Organization for 
Animal Health's (OIE's) standards for Antimicrobial Resistance; and 
develop educational modules and outreach materials for the stewardship 
and judicious use of antimicrobials.
    Question. I'm worried that proposed cuts at USDA will adversely 
affect your important work at the Agricultural Research Service (ARS) 
and in cooperation with university partners and extension officials 
through the National Institute of Food and Agriculture (NIFA). Can you 
assure me that the laudable efforts USDA is making to advance research 
on antibiotic stewardship will continue, and that you will do all you 
can to maintain the momentum and keep this important work on track?
    Answer. USDA recognizes the importance of research on antimicrobial 
resistance (AMR). ARS supports multidisciplinary research on antibiotic 
stewardship and pathogen control in food animals, crops and on-farms 
through numerous on-going projects in all five ARS geographic regions 
across the United States. The ARS Office of National Programs is 
actively seeking another National Program Leader for Food Safety, with 
a specific emphasis to coordinate and lead research on AMR. On an 
annual basis ARS has and will continue, to request research proposals 
to address AMR problems. These projects foster interdisciplinary 
collaboration across ARS National Programs and with university 
partners.
    NIFA continues to fund and support antimicrobial resistance work in 
fiscal year 2018 through multiple avenues through the Agriculture and 
Food Research Initiative (AFRI), including foundational research 
grants, the Animal Health and Disease competitive research program, and 
its new Sustainable Agricultural Systems program. Antimicrobial 
resistance remains a critical agency cross-cutting issue at NIFA.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                conservation reserve enhancement program
    Question. You have supported water quality as a lynchpin of 
sustainable agricultural production. So, it is surprising that the USDA 
recently changed the rules for implementation of the Conservation 
Reserve Program (CRP), essentially making all the land in the state of 
Vermont ineligible to enroll in the CRP.
    This is a program in which Vermont has invested significant 
resources to develop a Conservation Reserve Enhancement Program, or 
CREP. The program has had positive outcomes for water quality in 
Vermont by helping farmers voluntarily establish vegetative and 
forested riparian buffers that filter runoff and trap sediment, 
fertilizers, and pesticides.
    Vermont is one of many states that have passed water quality laws 
and regulations, including buffer requirements that still keep these 
lands in agricultural production, allowing haying, grazing, and 
fertilizer application. Our farmers need the CRP.
    How will you work with me and the state of Vermont to resolve this 
issue and ensure that Vermont can continue its successful CREP 
partnership with the USDA in order to meet the state's ambitious water 
quality goals?
    Answer. The change in the CRP regulation was promulgated in 2015. 
FSA is aware that a current regulation regarding state resource-
conserving laws has rendered certain land in Vermont ineligible for CRP 
and its component, the Conservation Reserve Enhancement Program. FSA 
supports a rule change and in June 2018, will begin the rulemaking 
process that will allow for such land to be enrolled in CRP and CREP.
                           nrcs staffing plan
    Question. You spoke of the work the Department is doing on a 
strategic staffing plan, and have stated unequivocally that you do not 
have a ``hiring freeze'' in place. I am concerned, however, that a de 
facto hiring freeze has been in place for the Natural Resource 
Conservation Service (NRCS). Your fiscal year 2019 budget request shows 
that the NRCS will have nearly 2,000 fewer permanent positions versus 
in fiscal year 2017, and 1,721 of those positions are essential field 
positions. Funding for staff salaries at NRCS for the current fiscal 
year has been provided through both the 2014 Farm Bill, as well as 
through the Conservation Operations account in the fiscal year 2018 
Consolidated Appropriations Act.
    Do you commit to utilizing the conservation funding provided by 
Congress to ensure that the NRCS' workloads are met across the country? 
Are you committed to hiring the staff necessary to meet program and 
landowner demand?
    Answer. NRCS, FSA and RMA have been reviewing farmer and rancher 
expectations of customer service, and how the FPAC agencies can best 
meet those needs. There was no hiring freeze in place for fiscal year 
2017 or fiscal year 2018, but rather the implementation of a strategic 
approach to hiring to improve the customer experience and increase 
efficiency of service. The FPAC mission area is using an analytical 
staffing tool to inform all hiring decisions. This tool is used to 
focus hiring to areas of greatest need, to meet the customer service 
expectations of America's farmers and ranchers.
         sustainable agriculture research and education (sare)
    Question. Your budget proposal makes serious cuts to USDA's 
research programs, including a $16 million, or 46 percent, cut to the 
Sustainable Agriculture Research and Education (SARE). The fiscal year 
2018 Consolidated Appropriations Act provided $35 million for SARE, 
reflecting Congress's commitment to the program.
    Do agree that SARE fills a unique role in agricultural research in 
this country?
    Answer. Yes, I agree that the SARE program fills a unique role in 
agricultural research and education programs in this country. The 
program has achieved good citizen engagement through the four regional 
Administrative Councils. The awarded projects have strong relevancy to 
the current agricultural needs and opportunities in each region.
    Question. Why have the SARE Regional Host institutions recently 
been required to compete every 5 years, as opposed to the previous 10-
year cycle?
    Answer. USDA has a long standing existing policy that requires 
open, fair, and transparent competition for the discretionary funding 
opportunities it oversees. USDA-NIFA and its predecessor agency had 
previously awarded the SARE Host Institution cooperative agreements 
under a competition waiver. After careful consideration of the 
competition policy, the continual reuse of the exception authority, the 
specific history of the SARE program and the significant growth in the 
size of the annual Host Institution awards, NIFA determined in 2017 
that it was not appropriate to continue making these sizeable awards 
without open competition.
    Based on these considerations USDA-NIFA offered the opportunities 
to serve as one of the four Regional Host Institution for fiscal year 
2018 through fiscal year 2022 in a competitive RFA that was released on 
June 29, 2017. The application deadline was September 28, 2017. The 
selection process which was carefully constructed to include input from 
each regional administrative council and a NIFA appointed peer review 
panel was successfully completed on December 19, 2017.
    For clarification, the SARE Regional Host institutions were never 
previously required to compete on a 10-year cycle since its first 
appropriation in fiscal year 1988. Prior to 2017, the regional Host 
Institution role has been competed rarely if warranted by circumstances 
in individual regions. These open competitions occurred once in each of 
the Southern, Western and North Central regions. The Northeastern 
Regional Host Institution had not been openly competed.
                          food safety outreach
    Question. Your budget proposal requests only $5 million for the 
Food Safety Outreach Program, a reduction of $2 million from the fiscal 
year 2018 enacted level. This is a program that I fought to add to the 
Food Safety Modernization Act in 2010 to help farmers deal with the new 
and complex food safety regulations.
    How do justify that reducing this program by $2 million will 
adequately meet the needs of over 100,000 farmers in this country who 
are now grappling with complicated new food safety regulations?
    Answer. In response to the Food Safety Modernization Act (FSMA), 
the National Institute of Food and Agriculture (NIFA) and Food and Drug 
Administration (FDA) established a national infrastructure in fiscal 
year 2015 that included a National Coordination Center and four 
Regional Centers across the U.S. to facilitate training and technical 
assistance for producers and processors that are impacted by FSMA. As a 
result, NIFA has successfully funded 52 projects to Community Based 
Organizations, Cooperative Extension at 1890 and 1862 Land-Grant 
Universities (LGUs), and local food hubs between fiscal year 2015 to 
fiscal year 2017. This effort supported FSMA training and education for 
over 3,000 Trainers, Trainers of Trainers, Small Producers, and Small 
Processors in every state across the U.S., including Hawaii, and the 
U.S. Territories of American Samoa, Guam, and Puerto Rico.
    NIFA and FDA partnership will continue to extend food safety 
education, training, and technical assistance with the requested $5 
million in fiscal year 2019 to specific audiences affected by 
guidelines established under the Food Safety Modernization Act. 
Specifically, emphasis will be placed on the delivery of customized 
training to small and medium sized farms, beginning farmers, socially 
disadvantaged farmers, small processors, or small fresh fruit and 
vegetable merchant wholesalers.
                     national organic program (nop)
    Question. While I was pleased to see that your budget included 
$12.032 million for the National Organic Program (NOP); your 
justification did not speak to the staffing challenges for the NOP. 
Recent attrition at the NOP has left the program severely understaffed. 
Consumer trust in the integrity of the USDA organic label is what fuels 
the $50 billion plus organic industry in this country.
    How will you work to fill these important roles at the NOP?
    Answer. The National Organic Program currently has 35 full time 
staff members. In the past year, we have recruited a new Appeals 
Specialist, a new National List Manager, two new Accreditation Managers 
to oversee our third-party certifiers, and three new Compliance and 
Enforcement specialists. By the end of the calendar year, we will 
recruit for an Associate Deputy Administrator, a Quality Manager, and 
up to three additional Accreditation Managers/auditors. While Federal 
hiring takes time, these positions have been approved and are actively 
in the recruiting process. The program is also added supplemental 
resources, in the form of contract support, to review incoming 
complaints, to support the development of the Strengthening Enforcement 
rulemaking currently on the Regulatory Agenda, and to support program 
technology needs. These resources are supporting the program's ability 
to meet our core priority of protecting the integrity of the USDA 
organic seal.
                   value-added producer grant program
    Question. Value-added agriculture has the potential to aid in the 
development and revitalization of rural economies across the United 
States; however, as was highlighted in your own report to the President 
from the Task Force on Agriculture and Rural Prosperity, access to 
capital for rural business men and women, entrepreneurs, as well as 
beginning farmers and ranchers, is an obstacle to starting, growing or 
expanding a business. They are often either too large or too small to 
qualify for, or gain access to, available loans and lending programs.
    Why do you recommend eliminating the Value-Added Producer Grant 
Program?
    Answer. We continue to work on aligning our programs and program 
performance commitments to make government more effective, efficient, 
and customer-focused in managing and delivering RBS programs for 
maximum economic impact in all rural communities. This new focus will 
help us identify opportunities for streamlining, cost savings, and 
improvements to shape policy and management choices in both the short 
and long term.
    Question. 4-H is one of our nation's largest and leading youth 
development programs, and a great achievement for USDA. The positive 
impact of 4-H for youth from so many diverse backgrounds over so many 
years is immeasurable. So I am alarmed that recent reports suggest that 
the USDA may have withdrawn previously posted regional guidance on the 
delivery of 4-H programs to LGBTQ youth, and may be discouraging 
national conversations on this subject.
    What is the USDA's policy on serving all clients, including LGBTQ 
youth?
    Answer. My expectation for all USDA employees and affiliates is 
simple--''Do right and feed everyone.'' This pledge is at the heart of 
all USDA work. Upholding civil rights and all the freedoms enshrined in 
our laws is not optional, and it is not discretionary. USDA's 
commitment to ``doing right'' by treating everyone with respect and 
dignity is exemplified by the Department's Non-Discrimination Statement 
and Anti-Harassment Statement.
    Question. How will you share nationwide best practices to improve 
the success of the 4-H program and support USDA staff and volunteers as 
they deliver the benefits of this program to all youth, including LGBTQ 
constituents?
    Answer. USDA gives its full support to the mission of 4-H, which 
has a long history and tradition of youth empowerment. 4-H has a 
national reach, but it is primarily run as a local program and should 
retain the power to decide issues of governance at a local level. 
``Doing right'' means treating everyone with respect and dignity. These 
values are reflected in USDA's Non-Discrimination Statement and Anti-
Harassment Statement.
               elimination of rural development programs
    Question. The President's fiscal year 19 budget proposes to 
eliminate more than 43 programs benefiting small, rural communities. 
Specifically, the Administration's proposal proposes eliminating 
Section 502 direct single family housing loans, Section 515 direct 
multi-family housing loans, and 504 direct low-income housing repair 
loans. These loans are overwhelmingly made to individuals and families 
in rural areas that are otherwise unable to obtain or access credit.
    Given that these are loans, not grants, and that the Federal 
government will more often than not recoup its investment with 
interest, what is the purpose of eliminating these programs?
    Answer. USDA remains deeply committed to affordable housing in 
rural communities and is exploring new strategies to maximize program 
effectiveness to better assist rural Americans with the least burden to 
the taxpayers. The Section 515 direct multi-family housing program 
requires subsidy to operate, and the Department must manage competing 
priorities in Rural Development and beyond with limited funding 
resources. The Departmental budget proposes a $20 million increase in 
the Section 538 Guaranteed Loan program funding from $230 million in 
the current fiscal year to $250 million in fiscal year 2019. This 
program, which supports affordable multi-family housing construction 
and renovation, similar to Section 515, has a negative subsidy rate, 
enabling USDA to serve rural Americans without burdening taxpayers with 
additional financing costs. Very low- and low-income families may also 
obtain funding through the Single-Family Housing Guaranteed Program, 
which is subsidy neutral and has a proposed program level in fiscal 
year 2019 of $24 billion.
    Question. How can communities in rural America borrow money to 
purchase homes and repair their homes, specifically older Americans who 
are on fixed incomes absent these low-interest loans?
    Answer. Many homebuyers will continue to qualify for USDA's Single-
Family Housing Guaranteed Loan program, which can also leverage State 
and local down payment assistance and owner-occupied rehabilitation 
programs. Non-profit housing entities, such as Habitat for Humanity, 
may also be a resource. Conventional lenders and home repair programs 
available through HUD can also serve homeowners in rural America. In 
addition, some States also have programs or tax laws that provide 
property tax relief so older Americans on fixed incomes may obtain 
affordable housing.
                rural business development grant program
    Question. Absent dynamic economic engines, many communities in 
rural America will continue to struggle with low incomes and 
outmigration. Rural Business Development Grants are designed to support 
and promote activities leading to development and expansion of small 
private businesses in rural areas.
    Why eliminate a program that is designed to get at some of the core 
challenges in rural America?
    Answer. We continue to work on aligning our programs and program 
performance commitments to make government more effective, efficient, 
and customer-focused in managing and delivering RBS programs for 
maximum economic impact in all rural communities. This new focus will 
help us identify opportunities for streamlining, cost savings, and 
improvements to shape policy and management choices in both the short 
and long term.
    Question. Is this program oversubscribed? Per year for the last 5 
years, how many applications did the Department receive for how much 
funding? How many Vermont applications did the Department receive 
during that time and how many were funded?
    Answer. The tables below reflect the number of applications and the 
funding amounts the Department received. The information is provided 
for the record.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                           Number of  Awards
                     Fiscal Year                      Number of  Applications      Amount Requested              Funded               Amount Funded
--------------------------------------------------------------------------------------------------------------------------------------------------------
2013................................................                      847              $63,900,026                      426              $28,544,452
2014................................................                      668               49,298,264                      451               28,747,387
2015................................................                      771               62,650,578                      467               30,673,156
2016................................................                      741               52,009,890                      501               31,122,946
2017................................................                      793               59,077,124                      488               30,469,181
    Total...........................................                    3,820             $286,935,882                    2,333             $149,557,122
--------------------------------------------------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------
                                        Fiscal
               Vermont                Year 2013-          Funds
                                         2017
------------------------------------------------------------------------
Apps Rec'd..........................        177              $11,411,696
Awards..............................         98               $6,694,784
------------------------------------------------------------------------

                      community facilities program
    Question. Community Facilities programs are an essential tool to 
help rural communities develop essential facilities including 
healthcare facilities, public facilities, educational services, and 
utility services like telemedicine. These loans and grants are 
essential in Vermont and across the country. Given the opioid epidemic, 
I and others have expressed our support for prioritizing applications 
for opioid prevention and treatment centers.
    Would you agree that we need to increase the overall funding pot 
for community facilities to achieve that goal while maintain the 
existing level of assistance for community facilities programs in rural 
communities across the United States?
    Answer. The Community Facilities Program (CF) helps to address a 
wide range of mental and behavioral health needs in rural communities 
through financing essential community facilities, including those that 
support prevention, treatment, and recovery from the opioid crisis. In 
fiscal year 2017, CF invested approximately $242 million in direct and 
guaranteed loans and grants in 17 essential community facilities that 
provided for the prevention, treatment, and recovery of substance abuse 
and opioid disorders. The President's Budget requested $3.5 billion for 
the CF direct loan program, a $700 million increase over the fiscal 
year 2018 enacted levels, to ensure that Rural Development can further 
address the opioid epidemic while continuing to provide other essential 
community facilities. The Agency will continue to balance the overall 
need for essential community facilities while maintaining a focus on 
helping to address the opioid crisis in rural America.
    Question. What would you say is an appropriate increase for loans 
and grants to meet the growing need for community facilities for 
prevention and treatment?
    Answer. The President's Budget proposed $3.5 billion in program 
level for the CF direct loan program, which is subsidy neutral. This 
increase of $700 million over the fiscal year 2018 enacted level will 
help ensure RD is able to meet the growing demand for community 
facilities to prevent and treat those affected by opioids. We will 
continue to work with Congress to explore innovative approaches and 
partnerships to leverage available resources to aid in prevention and 
treatment facilities.
              telecommunication services in rural america
    Question. The Rural Utilities Service Broadband and Infrastructure 
loan programs are important sources of funding for bringing advanced 
telecommunications services to rural parts of the country. 
Unfortunately, states with majority rural populations appear to rank in 
the bottom half of loan amounts granted since 2004.
    Will you commit to reviewing the criteria RUS uses for these 
programs to ensure that funding is equitably distributed across the 
country?
    Answer. In the past several years, the Rural Utilities Service 
Broadband and Infrastructure Loan Programs have been undersubscribed. 
RUS has been able to fund all eligible, technically-feasible, and 
financially-sound applications received. We look forward to working 
with Congressional leaders, community leaders, our stakeholders, and 
others to bringing e-connectivity to more rural parts of the country.
    Question. If at the conclusion of your review you deem the criteria 
does not allow funding to be equitably distributed, will you 
communicate those findings with the Subcommittee?
    Answer. We look forward to working with Congressional leaders, 
community leaders, our stakeholders, and others to bringing e-
connectivity to more rural parts of the country.
    Question. Will you communicate and work with me and my staff if you 
determine that you need additional statutory authority to alter RUS 
criteria for Broadband Service and Infrastructure loans in order to 
more equitably distribute loans?
    Answer. We look forward to working with Congressional leaders, 
community leaders, our stakeholders, and others to bringing e-
connectivity to more rural parts of the country while also ensuring due 
diligence in awarding loans of taxpayer funds based on project 
soundness and payback capability.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                    ams--cranberry marketing orders
    Question. In 2017, U.S. cranberry growers approved volume 
regulations in order to address oversupply issues. These volume 
regulations were submitted to USDA for approval in September 2017, but 
was not approved for 8 months, finally receiving approval in April of 
2018. Delays in volume regulation approval delays reduce the cost 
savings and undermine crop production decreases the industry had hoped 
to achieve from utilizing a marketing order, as processors must to pay 
to store harvested fruit while the regulation awaits approval. 
Cranberry growers have approved volume regulations in order to reduce 
oversupply through a mechanism separate from Section 32 purchases, but 
delays in volume regulation approval exacerbate the oversupply 
situation substantially. What does USDA plan to do to reduce excessive 
waiting periods for volume regulation approval in the future?
    Answer. USDA is committed to publishing rules as quickly as 
possible. Because of the time it took to publish a final rule to 
address cranberry oversupply issues, USDA is taking time at the 
committee meetings to recap the decisions made and ensure everyone 
understands the process, timeline and other pertinent information. 
Additionally, the Department will continue to review our processes to 
ensure we are as efficient as possible as we work to always meet the 
needs of our customers.
                    section 32 tart cherry purchase
    Question. Tart cherry producers are currently experiencing 
challenging market conditions, exacerbated by unfair trade practices 
that allow tart cherry imports to flood the US market, placing US 
cherry producers at a disadvantage. Tart cherry producers have 
requested a Section 32 purchase by the USDA, which would provide 
farmers a much-needed tool to weather difficult market conditions while 
the trade issues are investigated and addressed. When does the USDA 
expect to make a final determination regarding the Section 32 purchase 
request for tart cherries?
    Answer. AMS has received a request from industry to purchase tart 
cherry products using Section 32 authority. AMS expects to conduct the 
economic analysis and make a determination on whether a Section 32 
purchase is justified in early first quarter fiscal year 2019.
                             fsa positions
    Question. With the difficult Ag economy and low dairy prices, we 
are seeing many farmers applying for loans from FSA. I am concerned 
that delays in processing loan applications add to the uncertainty 
farmers are facing and make farm business decisions challenging. FSA 
staff vacancies are making it harder to provide prompt service and help 
farmers troubleshoot and find creative ways to make it through tough 
times. What is your plan to ensure full and prompt service is provided 
to farmers who are working with FSA during this challenging time?
    Answer. Congress provided $8 million to fund hiring approximately 
200 Farm Loan Officer Trainees. States have been given authorization to 
proceed with hiring one hundred positions. Authorization for the 
remaining one hundred positions will be given in August 2018. FPAC has 
been working on an analytical staffing tool to inform staffing 
decisions. Phase 1 of the tool will be grounded in state workload data 
and an evaluation of office productivity at the county level. Phase 2 
will be completed in August 2018 and will add more robust productivity 
data by county and forecast demand by program/activity for each county 
office, county agricultural profiles and office footprint data. 
Utilizing this tool focuses hiring on the high priority positions and 
areas to meet the expectations and needs of America's farmers and 
ranchers.

                          SUBCOMMITTEE RECESS

    Senator Hoeven. With that, this hearing is concluded. Thank 
you.
    [Whereupon, at 11:56 a.m., Wednesday, April 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
